<html>
<title> - EXAMINING THE OLYMPIC COMMUNITY'S ABILITY TO PROTECT ATHLETES FROM SEXUAL ABUSE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
  EXAMINING THE OLYMPIC COMMUNITY'S ABILITY TO PROTECT ATHLETES FROM 
                              SEXUAL ABUSE

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 23, 2018

                               __________

                           Serial No. 115-134
                           
                           
                           
                           
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                         
  
  



      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                        
                        
                        
                        _______________

               U.S. GOVERNMENT PUBLISHING OFFICE
                   
33-664 PDF             WASHINGTON : 2019                             
                        
                        


                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
MICHAEL C. BURGESS, Texas            ELIOT L. ENGEL, New York
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
STEVE SCALISE, Louisiana             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                MICHAEL F. DOYLE, Pennsylvania
CATHY McMORRIS RODGERS, Washington   JANICE D. SCHAKOWSKY, Illinois
GREGG HARPER, Mississippi            G.K. BUTTERFIELD, North Carolina
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     JERRY McNERNEY, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            PAUL TONKO, New York
BILL JOHNSON, Ohio                   YVETTE D. CLARKE, New York
BILLY LONG, Missouri                 DAVID LOEBSACK, Iowa
LARRY BUCSHON, Indiana               KURT SCHRADER, Oregon
BILL FLORES, Texas                   JOSEPH P. KENNEDY, III, 
SUSAN W. BROOKS, Indiana             Massachusetts
MARKWAYNE MULLIN, Oklahoma           TONY CARDENAS, California
RICHARD HUDSON, North Carolina       RAUL RUIZ, California
CHRIS COLLINS, New York              SCOTT H. PETERS, California
KEVIN CRAMER, North Dakota           DEBBIE DINGELL, Michigan
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia
JEFF DUNCAN, South Carolina

                                 ______

              Subcommittee on Oversight and Investigations

                       GREGG HARPER, Mississippi
                                 Chairman
H. MORGAN GRIFFITH, Virginia         DIANA DeGETTE, Colorado
  Vice Chairman                        Ranking Member
JOE BARTON, Texas                    JANICE D. SCHAKOWSKY, Illinois
MICHAEL C. BURGESS, Texas            KATHY CASTOR, Florida
SUSAN W. BROOKS, Indiana             PAUL TONKO, New York
CHRIS COLLINS, New York              YVETTE D. CLARKE, New York
TIM WALBERG, Michigan                RAUL RUIZ, California
MIMI WALTERS, California             SCOTT H. PETERS, California
RYAN A. COSTELLO, Pennsylvania       FRANK PALLONE, Jr., New Jersey (ex 
EARL L. ``BUDDY'' CARTER, Georgia        officio)
GREG WALDEN, Oregon (ex officio)

                                  (ii)
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Gregg Harper, a Representative in Congress from the State of 
  Mississippi, opening statement.................................     1
    Prepared statement...........................................     3
Hon. Diana DeGette, a Representative in Congress from the State 
  of Colorado, opening statement.................................     4
    Prepared statement...........................................     6
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     7
    Prepared statement...........................................     9
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................    10
    Prepared statement...........................................    11

                               Witnesses

Susanne Lyons, Acting Chief Executive Officer, United States 
  Olympic Committee..............................................    14
    Prepared statement...........................................    16
    Answers to submitted questions...............................   144
Kerry Perry, President and Chief Executive Officer, USA 
  Gymnastics.....................................................    23
    Prepared statement...........................................    25
    Answers to submitted questions...............................   148
Timothy Hinchey III, President and Chief Executive Officer, USA 
  Swimming.......................................................    30
    Prepared statement...........................................    32
    Answers to submitted questions...............................   157
Stephen McNally, Executive Director, USA Taekwondo...............    35
    Prepared statement...........................................    37
    Answers to submitted questions...............................   165
Jamie Davis, Chief Executive Officer, USA Volleyball.............    62
    Prepared statement...........................................    65
    Answers to submitted questions...............................   171
Shellie Pfohl, President and Chief Executive Officer, U.S. Center 
  for SafeSport..................................................    88
    Prepared statement...........................................    90
    Answers to submitted questions...............................   179

                           Submitted Material

Subcommittee memorandum..........................................   132
Subcommittee exhibit binder \1\

----------
\1\ The exhibit binder has been retained in committee files and 
  also is available at  https://docs.house.gov/Committee/
  Calendar/ByEvent.aspx?EventID=
  108356.
  


  EXAMINING THE OLYMPIC COMMUNITY'S ABILITY TO PROTECT ATHLETES FROM 
                              SEXUAL ABUSE

                              ----------                              


                        WEDNESDAY, MAY 23, 2018

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
room 2123, Rayburn House Office Building, Hon. Gregg Harper 
(chairman of the subcommittee) presiding.
    Members present: Representatives Harper, Griffith, Burgess, 
Brooks, Collins, Barton, Walberg, Walters, Costello, Carter, 
Walden (ex officio), DeGette, Schakowsky, Castor, Tonko, 
Clarke, Ruiz, Peters, and Pallone (ex officio).
    Also present: Representatives Bilirakis and Dingell.
    Staff present: Jennifer Barblan, Chief Counsel, Oversight 
and Investigations; Mike Bloomquist, Staff Director; Kelly 
Collins, Legislative Clerk, Energy/Environment; Adam Fromm, 
Director of Outreach and Coalitions; Ali Fulling, Legislative 
Clerk, Oversight and Investigations, Digital Commerce and 
Consumer Protection; Brighton Haslett, Counsel, Oversight and 
Investigations; Brittany Havens, Professional Staff Member, 
Oversight and Investigations; Elena Hernandez, Press Secretary; 
Zach Hunter, Communications Director; Austin Stonebraker, Press 
Assistant; Natalie Turner, Counsel, Oversight and 
Investigations; Hamlin Wade, Special Advisor for External 
Affairs; Julie Babayan, Minority Counsel; Christina Calce, 
Minority Counsel; Jeff Carroll, Minority Staff Director; Zach 
Kahan, Minority Outreach and Members Services Coordinator; 
Chris Knauer, Minority Oversight Staff Director; Miles 
Lichtman, Minority Policy Analyst; Perry Lusk, Minority GAO 
Detailee; Tim Robinson, Minority Chief Counsel; Andrew Souvall, 
Minority Director of Communications, Member Services, and 
Outreach; and C.J. Young, Minority Press Secretary.

  OPENING STATEMENT OF HON. GREGG HARPER, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF MISSISSIPPI

    Mr. Harper. The hearing will come to order.
    Today, the Subcommittee on Oversight and Investigations is 
holding a hearing entitled ``Examining the Olympic Community's 
Ability to Protect Athletes from Sexual Abuse.''
    We are here because recent events have highlighted a very 
troubling and concerning pattern of sexual misconduct within 
the U.S. Olympic community. There's been a systemic failure in 
the system to protect athletes, including in how allegations of 
sexual misconduct have been handled--or should I say not 
handled--by the national governing bodies, the groups that run 
individual sports, and the U.S. Olympic Committee.
    And let me be clear: One case of sexual abuse is one case 
too many, and it will take a Herculean effort to regain the 
trust of prospective athletes, their families, and the American 
people. The USOC and NGBs play a role in keeping millions of 
American athletes safe from harm.
    The vast majority of the athletes involved in NGBs will 
never compete in Olympics. They are on teams affiliated with an 
NGB or play at an NGB-sponsored event. This can include little 
league teams, local tennis tournaments, or gymnastics 
competitions. They are, in many instances, children, but they 
still fall within the parameters of organized sport.
    So when we talk about athletes' safety, we aren't just 
talking about elite athletes representing their country at the 
highest level of their competition, we are also talking about 
our friends, our neighbors, and, yes, our children.
    This is why athlete safety must be the top priority of the 
USOC and NGBs, and why they should have robust policies and 
procedures in place that reflect this priority.
    More importantly, these policies and procedures must be 
followed, otherwise they aren't worth the paper that they're 
written on, and the culture must be such that our athletes feel 
safe and protected.
    Sadly, we've seen what can happen when athlete safety is 
not a priority. Too often it seems that the USOC and NGBs 
haven't acted until they are publicly pressured to do so. When 
you have survivors saying that they were asked to stay silent, 
felt that they weren't heard, and didn't feel safe, there's 
something horribly wrong with the system.
    Sexual abuse is a problem that our society must confront. 
According to the CDC's statistics on sexual violence, one in 
three women and one in six men experience sexual violence 
involving physical contact during their lifetimes.
    While such focus has been on USA Gymnastics team doctor 
Larry Nassar, gymnastics is not the only NGB that has had its 
challenges. Recent public reports also include the Lopez 
brothers in Taekwondo, Rick Butler in Volleyball, and the 
multiple accusations that have come from the swimming 
community, as well as reports in many other NGBs not before us 
today.
    Historically, each NGB and the USOC were responsible for 
directly handling any complaints, allegations, or reports of 
sexual abuse within their respective sport. However, policies, 
procedures, and bylaws weren't consistent across all NGBs, and 
it's unclear whether there was adequate oversight to ensure 
that the applicable policies and procedures were even followed.
    There have been some recent changes to improve how 
allegations of sexual misconduct are handled in the Olympic 
community. The USOC has used working groups to make 
recommendations for promoting and protecting athletes.
    Through these working groups, new policies and procedures 
were developed and the U.S. Center for SafeSport was created by 
the USOC and launched in March of 2017. Now all NGBs and the 
USOC are required to report all complaints or allegations that 
involve sexual misconduct to the Center for investigation.
    Over the course of this investigation, the committee has 
spoken with many survivors, and their experiences have informed 
and shaped our work. These conversations and the many thousands 
of pages of documents provided to the committee by survivors 
and whistleblowers helped shed light on the pervasive problem 
of sexual abuse in organized sport and prompted the committee 
to request documents from all 48 national governing bodies and 
the USOC.
    We greatly appreciate all the assistance that the survivors 
have provided and our hearts do go out to them. Our job now is 
to do everything we can to protect our athletes, many of whom 
are children.
    This hearing will serve as an opportunity to review whether 
the USOC and NGBs have adequate policies and procedures in 
place to protect athletes from sexual abuse. It is of the 
utmost importance to hold them accountable for their past 
failures and ensure that safety is their top priority going 
forward. It is time to change the culture, once and for all.
    I'd like to welcome all of our witnesses, and I do thank 
you for being here today. And I know this isn't an easy topic, 
but it is one that we need to address to keep our Nation's 
athletes safe. And we do look forward to hearing your 
testimony.
    I would also like to thank the ranking member of the 
subcommittee, Ms. DeGette, and other minority members and staff 
for their bipartisan hard work and assistance that we've seen 
during this investigation.
    [The prepared statement of Mr. Harper follows:]

                Prepared statement of Hon. Gregg Harper

    Today, the Subcommittee on Oversight and Investigations is 
holding a hearing entitled, ``Examining the Olympic Community's 
Ability to Protect Athletes from Sexual Abuse.'' We are here 
because recent events have highlighted a very troubling and 
concerning pattern of sexual misconduct within the U.S. Olympic 
Community. There have been breakdowns and failures in the 
system to protect athletes, including in how allegations of 
sexual misconduct have been handled by the National Governing 
Bodies-the groups that run individual sports-and the U.S. 
Olympic Committee.
    The USOC and NGBs play a role in keeping millions of 
American athletes safe from harm. The vast majority of the 
athletes involved in NGBs will never compete in the Olympics. 
They're on teams affiliated with an NGB, or play in NGB-
sponsored events. This can include little league teams, local 
tennis tournaments or gymnastics competitions. They are, in 
many instances, children. But they still fall within the 
parameters of ``organized sport.'' So when we talk about 
athlete safety, we aren't just talking about elite athletes 
representing their country at the highest levels of their 
competition. We are also talking about our friends, our 
neighbors, our kids.
    This is why athlete safety must be the top priority of the 
USOC and NGBs, and why they should have robust policies and 
procedures in place that reflect this priority. More 
importantly, these policies and procedures must be followed-
otherwise they aren't worth the paper they are written on-and 
the culture must be such that our athletes feel safe and 
protected. Sadly, we've seen what can happen when athlete 
safety is not a priority.
    Too often it seems that the USOC and NGBs haven't acted 
until they are publicly pressured to do so. When you have 
survivors saying that they were asked to stay silent, felt like 
they weren't heard, and didn't feel safe--there is something 
wrong with the system.
    Sexual abuse is a problem our society must confront. 
According to the CDC's statistics on sexual violence, one in 
three women and one in six men experience sexual violence 
involving physical contact during their lifetimes. While much 
focus has been on USA Gymnastics team doctor Larry Nassar, 
gymnastics is not the only NGB that has had its challenges. 
Recent public reports also include the Lopez brothers in 
Taekwondo, Rick Butler in Volleyball, and the multiple 
accusations that have come from the Swimming community, as well 
as reports in many other NGBs not before us today.
    Historically, each NGB and the USOC were responsible for 
directly handling any complaints, allegations, or reports of 
sexual abuse within their respective sport. However, policies, 
procedures, and bylaws weren't consistent across all NGBs and 
it's unclear whether there was adequate oversight to ensure 
that the applicable policies and procedures were followed.
    There have been some recent changes to improve how 
allegations of sexual misconduct are handled in the Olympic 
community. The USOC has used working groups to make 
recommendations for promoting and protecting athletes. Through 
these working groups, new policies and procedures were 
developed, and the U.S. Center for SafeSport (Center) was 
created by the USOC and launched in March 2017. Now all NGBs 
and the USOC are required to report all complaints or 
allegations that involve sexual misconduct to the Center for 
investigation.
    Over the course of this investigation, the committee has 
spoken with many survivors, and their experiences have informed 
and shaped our work. These conversations-and the thousands of 
pages of documents provided to the committee by survivors and 
whistleblowers-helped shed light on the pervasive problem of 
sexual abuse in organized sport, and prompted the committee to 
request documents from all 48 national governing bodies and the 
USOC.
    We greatly appreciate all the assistance that the survivors 
have provided. Our job, now, is to do everything we can to 
protect our athletes. This hearing will serve as an opportunity 
to review whether the USOC and NGBs have adequate policies and 
procedures in place to protect athletes from sexual abuse. 
These organizations are directly responsible for the safety of 
athletes. It is of the utmost importance to hold them 
accountable for their past failings and ensure that safety is 
their top priority going forward. It is time to change the 
culture, once and for all.
    I'd like to welcome all of our witnesses and thank you for 
being here today. I know that this isn't an easy topic, but 
it's one that we need to address to keep our Nation's athletes 
safe. We look forward to hearing your testimony.
    I would also like to thank the ranking member of 
subcommittee, Ms. DeGette, and other minority members and staff 
for their hard work and assistance on this bipartisan 
investigation.

    Mr. Harper. And I'll now recognize the ranking member of 
the subcommittee, Ms. DeGette.

 OPENING STATEMENT OF HON. DIANA DEGETTE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Ms. DeGette. Thank you so much, Mr. Chairman.
    There were warning signs about sexual misconduct in amateur 
sports for decades. And yet, the systems that were supposed to 
protect our athletes failed. That's why we're here today.
    As the chairman noted, these systems failed to stop Larry 
Nassar from harming more than 250 individuals. They failed to 
stop a taekwondo coach from abusing three athletes over 7 years 
for which he was later convicted of multiple felonies. And they 
failed to stop a swim coach from abusing more than a dozen 
athletes over 30 years.
    That coach was eventually sentenced to 40 years in prison, 
but even a lifetime in jail cannot erase the damage that he has 
done.
    These cases, unfortunately, are not anomalies. Far too many 
athletes, from far too many sports, have come forward stating 
that they had been traumatized by the very people they trusted 
to help them achieve their dreams.
    Today we are here because we need to know that the Olympic 
sport community has learned from these survivors and is using 
that knowledge to develop and implement a new system run by the 
U.S. Center for SafeSport.
    We need to be the convinced that this new Center has a 
robust system to investigate and stop bad actors so that 
situations like this never happen again. And we need to make 
sure that the Center has adequate funding going forward into 
the future.
    I understand that the U.S. Olympic Committee and the 
national governing bodies are engaging in their own internal 
investigations into what went wrong. I hope everyone today is 
prepared to explain exactly what they're doing to investigate 
and learn from past failures so that they can build a system 
that works.
    I also hope the Center for SafeSport, which is located 
right in the heart of my congressional district, can help us 
explain how the past failures inform its work. Because the 
Center doesn't just investigate misconduct allegations, 
although that's an important part of their job, it also has the 
extraordinarily important task of developing anti-abuse 
policies and providing education and outreach to promote safe 
environments for athletes.
    I hope the Center will be able to make real, verifiable 
progress in creating a national culture of safety in sport.
    But I've got to say that I have concerns about whether 
SafeSport has sufficient resources and whether it truly has the 
independence it needs from the organizations it oversees.
    I spoke yesterday with SafeSport, and I want to make sure 
that we have formal outside assessments of SafeSport's needs 
and operations. And I want to make sure that the Olympic 
community and the sporting community also are committed to 
giving them the resources that they need.
    In case you didn't know this, the Olympic Committee is not 
operating on a shoestring. Its annual revenue is hundreds of 
millions of dollars. I hope we will hear today that if 
SafeSport needs more money, the U.S. Olympic Committee and the 
other governing bodies are prepared to increase substantially 
the support that they provide to this much-needed watchdog.
    I also want to know how the Center for SafeSport and 
national governing bodies will ensure that the independent 
systems that they've designed is working as intended and its 
meeting its goals of protecting the people that it is supposed 
to.
    For example, will there be ongoing and periodic performance 
audits to ensure that the complaints are properly investigated, 
the SafeSport's educational component is being implemented, and 
that its standards are being adopted by the many sports 
organizations under its jurisdiction?
    Ongoing audits are going to be critical to evaluating this 
new system, and I want to know that this will happen and that 
we have appropriate resources to do that work.
    I also want to understand that the U.S. Olympic Committee 
is prepared to enforce consistent anti-abuse policies and 
procedures across all governing bodies.
    For example, some governing bodies post public lists of 
banned athletes and coaches, while others do not. Some 
governing bodies require SafeSport training for all affiliated 
individuals, and others only require it for their members.
    I know that various affiliates are concerned about this and 
are trying to develop consistent policies. This is going to be 
critical and the leadership of the U.S. Olympic Committee will 
be critical.
    Look, we're not here today to tear down the sporting world. 
American performances at the Olympics are a source of national 
pride, and sports in general benefit children and adults at all 
levels. But it does no good for our athletes to stand on a 
podium if they've been harmed by the people and organizations 
that help get them there.
    I hope that we're on the road to real change. Today, I want 
to hear from every witness how we truly are and that the steps 
that we are taken to date are not just window dressing, because 
every athlete, no matter what sport they play, no matter what 
level they're playing it, deserves to complete in a heavy and a 
safe environment.
    Thank you.
    [The prepared statement of Ms. DeGette follows:]

                Prepared statement of Hon. Diana DeGette

    Thank you, Mr. Chairman.
    We are here today because there have been warning signs 
about sexual misconduct in sports for decades. And yet, the 
systems that were supposed to protect athletes failed.
    They failed to stop Larry Nassar from harming more than 250 
individuals. They failed to stop a taekwondo coach from abusing 
three athletes over 7 years, a crime for which he eventually 
was convicted of multiple felonies. And they failed to stop a 
swim coach from abusing more than a dozen athletes over 30 
years. That coach was eventually sentenced to 40 years in 
prison, but even a lifetime in jail would not erase the damage 
he has done.
    These cases are not anomalies. Far too many athletes from 
far too many sports have come forward stating that they have 
been harmed by the very people they trusted to help them 
achieve their dreams.
    Today, I need to know that the Olympic sport community has 
learned from these survivors, and is using this knowledge to 
design and implement the new system run by the U.S. Center for 
SafeSport. I need to be convinced that this new Center has a 
robust system to investigate and stop bad actors so that 
situations like these never happen again.
    I understand that the U.S. Olympic Committee and the 
national governing bodies are engaging in their own internal 
investigations into what went wrong. I hope they are all 
prepared to explain exactly what they are doing to investigate 
and learn from past failures so that they can build a system 
that works.
    I also hope that the Center for SafeSport is prepared to 
explain how these past failures inform its work. This Center 
does not just investigate misconduct allegations. It also has 
the extraordinarily important tasks of developing anti-abuse 
policies and providing education and outreach to promote safe 
environments for athletes.
    I hope that this Center will make real, verifiable progress 
in creating a culture of safety in sport.
    But I must say that I still have considerable concerns 
about whether SafeSport has sufficient tools and resources and 
operates with enough independence from the organizations it 
oversees. I want to know that there are formal ongoing 
assessments of SafeSport's needs and operations to ensure that 
it can handle its workload effectively.
    The Olympic Committee is not operating on a shoestring. Its 
annual revenue is in the hundreds of millions. I hope we will 
hear today that if SafeSport needs more money, the U.S. Olympic 
Committee and governing bodies are prepared to increase 
substantially the support they provide to the Center.
    Similarly, I would like to know how the Center for 
SafeSport and national governing bodies will ensure that the 
independent system they have designed is working as intended 
and meeting the needs of those it is charged with protecting.
    For example, will there be ongoing and periodic performance 
audits to ensure that complaints are properly investigated, 
that SafeSport's educational component is being implemented, 
and that its standards are being adopted by the many sports 
organizations under its jurisdiction? Ongoing audits are 
critical to evaluating this new system, and I want to know that 
they will happen and that there are appropriate resources 
already set aside to make them happen.
    I also want to understand that the U.S. Olympic Committee 
is prepared to enforce consistent anti-abuse policies and 
procedures across all governing bodies.
    For example, some governing bodies post public lists of 
banned athletes and coaches while others do not. Some governing 
bodies require SafeSport training for all affiliated 
individuals, and others only require it for members.
    There must be consistency in these policies, and the U.S. 
Olympic Committee must require the national governing bodies to 
adopt all changes needed.
    Let me conclude by saying that we are not here today to 
tear down sport. American performances at the Olympics are a 
source of national pride, and sports benefit children and 
adults at all levels. But it does us no good for our athletes 
to stand on a podium if those same athletes have been harmed by 
the individuals and organizations that helped them get there.
    I hope that we are on the road to real change. Today, I 
want every witness here to convince me that we are, and that 
the steps taken to date are not just ``window dressing.'' 
Because every athlete, no matter what sport they play or at 
what level, deserves to compete in a healthy and safe 
environment.
    Thank you, and I yield back.

    Mr. Harper. The Chair will now recognize the ranking 
member, Mr. Pallone, for an opening statement.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman.
    Today leaders of the Olympic community will tell us that 
they failed the people they were supposed to protect. We must 
examine those failures and understand whether the organizations 
before us today have learned from them.
    Reports of sexual abuse in organized sports have been in 
the press for decades, years before the world known of Larry 
Nassar's horrific crimes. It's shameful that many organizations 
share the blame for failing these survivors.
    The problem of sexual abuse in organized sports is bigger 
than Larry Nassar and it's bigger than any single organization. 
Today we'll hear from the national governing bodies of several 
sports, and each one has to address sexual abuse of their 
athletes.
    Unfortunately, we have seen that these cases are not rare. 
Too many athletes have come forward with accounts of abuse.
    These athletes come from different sports, but often we 
hear the same themes when we listen to them. Frequently their 
abusers held positions of power, sometimes controlling whether 
an athlete could train or compete, and frequently their abusers 
had powerful friends in their respective organizations.
    And up until recently, each sports' governing body 
addressed sexual abuse allegations internally, and that system 
failed to protect athletes.
    There was a great need for an independent organization, and 
last March the U.S. Center for SafeSport opened its doors with 
a mission to prevent abuse and foster a culture of safety in 
sports.
    Now sport governing bodies can and must report allegations 
of sexual misconduct to the Center for SafeSport. And the 
Center continues to receive new cases, as well as cases from 
athletes who had reported sexual misconduct in the past.
    On top of that, it offers education and training for sports 
governing bodies and athletes, and already the organization has 
provided training to more than 300,000 and has received more 
than 500 reports.
    And clearly all of this takes resources, and we need to 
make sure that the Center for SafeSport has the resources and 
personnel it needs to do its work.
    I also want to hear what the U.S. Olympic Committee is 
doing to support the Center for SafeSport. Special language in 
the Tax Code designates the U.S. Olympic Committee as a tax-
exempt, nonprofit organization, but few nonprofit organizations 
can report revenues in the hundreds of millions of dollars as 
the U.S. Olympic Committee did in its most recent tax filing.
    The U.S. Center for SafeSport gets its funding from diverse 
sources, including fundraising and government grants. It also 
gets a portion of its funding from the U.S. Olympic Committee.
    So I hope we'll hear today that the U.S. Olympic Committee 
and the sports governing bodies are prepared to provide 
consistent and continuing support to the Center for SafeSport. 
It is critical for the Center for SafeSport to have a permanent 
and dedicated source of funding, and these sports organizations 
should make sure that that happens.
    I also hope we will hear that the U.S. Olympic Committee 
will use its position of leadership and authority to require 
sports governing bodies to adopt reforms as needed to reduce 
the risk of harm to athletes.
    For example, questions such as, who is subject to 
background checks, how these checks are done, and whether lists 
of individuals banned from the sport are made public, are all 
important safety standards that should be applied consistently 
across all sports.
    I also want to hear that the Center for SafeSport, the 
Olympic Committee, and all governing bodies are committed to 
completing ongoing formal assessments and evaluations to 
determine what is working and what needs additional improvement 
or additional resources.
    Before we leave today, I want to hear from all of our 
witnesses about the reforms they've implemented to keep 
athletes safe. I want you to convince me that you're thoroughly 
examining how you failed athletes in the past and that those 
lessons are shaping the reforms you're putting in place.
    And I need to be convinced that you are building a system 
with the right people, structure, and resources to protect 
athletes under your leadership. I also want to hear that there 
will be zero tolerance for the kinds of abuses that brought us 
here today.
    With that, Mr. Chairman, unless someone wants my minute, I 
will yield back.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Today leaders of the Olympic community will tell us that 
they failed the people they were supposed to protect. We must 
examine those failures, and understand whether the 
organizations before us today have learned from them.
    Reports of sexual abuse in organized sports have been in 
the press for decades--years before the world learned of Larry 
Nassar's horrific crimes. It is shameful that many 
organizations share the blame for failing these survivors.
    The problem of sexual abuse in organized sports is bigger 
than Larry Nassar, and it is bigger than any single 
organization. Today we will hear from the National Governing 
Bodies of several sports. Each one has had to address sexual 
abuse of their athletes.
    Unfortunately, we have seen that these cases are not rare. 
Too many athletes have come forward with accounts of abuse. 
These athletes come from different sports, but often we hear 
the same themes when we listen to them. Frequently their 
abusers held positions of power--sometimes controlling whether 
an athlete could train or compete. And frequently their abusers 
had powerful friends in their respective organizations.
    Up until recently, each sports' governing body addressed 
sexual abuse allegations internally.
    That system failed to protect athletes.
    There was a great need for an independent organization. 
Last March, the U.S. Center for SafeSport opened its doors, 
with a mission to prevent abuse and foster a culture of safety 
in sports. Now sports governing bodies can--and must--report 
allegations of sexual misconduct to the Center for SafeSport.
    The Center continues to receive new cases, as well as cases 
from athletes who had reported sexual misconduct in the past. 
On top of that, it offers education and training for sports 
governing bodies and athletes. Already, the organization has 
provided training to more than 300,000 people, and has received 
more than 500 reports.
    Clearly, all of this takes resources, and we need to make 
sure the Center for SafeSport has the resources and personnel 
it needs to do its work.
    I also want to hear what the U.S. Olympic Committee is 
doing to support the Center for SafeSport. Special language in 
the Tax Code designates the U.S. Olympic Committee a tax-exempt 
nonprofit organization. But few nonprofit organizations can 
report revenues in the hundreds of millions of dollars, as the 
U.S. Olympic Committee did in its most recent tax filing.
    The U.S. Center for SafeSport gets its funding from diverse 
sources, including fundraising and Government grants. It also 
gets a portion of its funding from the U.S. Olympic Committee.
    I hope we will hear today that the U.S. Olympic Committee 
and the sports' governing bodies are prepared to provide 
consistent and continuing support to the Center for SafeSport. 
It is critical for the Center for SafeSport to have a permanent 
and dedicated source of funding, and these sports' 
organizations should make sure that happens.
    I also hope we will hear that the U.S. Olympic Committee 
will use its position of leadership and authority to require 
sports governing bodies to adopt reforms as needed to reduce 
the risk of harm to athletes.
    For example, questions such as who is subject to background 
checks, how those checks are done, and whether lists of 
individuals banned from a sport are made public are all 
important safety standards that should be applied consistently 
across all sports.
    I also want to hear that the Center for SafeSport, the 
Olympic Committee, and all governing bodies are committed to 
completing ongoing formal assessments and evaluations to 
determine what is working, and what needs additional 
improvement or additional resources.
    Before we leave today, I want to hear from all of our 
witnesses about the reforms they have implemented to keep 
athletes safe. I want you to convince me that you are 
thoroughly examining how you failed athletes in the past, and 
that those lessons are shaping the reforms you are putting in 
place.
    I need to be convinced that you are building a system--with 
the right people, structure, and resources--to protect athletes 
under your leadership. I also want to hear that there will be 
zero tolerance for the kinds of abuses that brought us here 
today.
    Thank you, and I yield back.

    Mr. Harper. The gentleman yields back.
    The Chair will now recognize the chairman of the full 
committee, Mr. Walden, for an opening.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Thank you very much, Mr. Chairman, for leading 
this investigation and holding this very important hearing 
today.
    Every one of us in this room has an Olympic memory. For a 
select few, it is actually competing in the Olympic Games on 
behalf of our great country. For the vast majority of us, it is 
watching our athletes compete.
    The Olympics inspire, they unite us, as we cheer them on to 
victory with great pride. Our children watch the Olympics with 
their own dream that one day they, too, may compete at the most 
elite level and represent our country.
    But the system of organized sport headed by the United 
States Olympic Committee and 48 national governing bodies, or 
NGBs, is much bigger than the Olympics and includes millions of 
athletes who don't necessarily compete at the highest levels.
    The four NGBs before us today--Gymnastics, Taekwondo, 
Volleyball and Swimming--collectively represent some 979,000 
members. USA Swimming includes everyone from Michael Phelps--
who, by the way, testified before this committee last year--to 
children competing in a local recreational league.
    And the same is true not for the three other NGBs at the 
table today, but for all the other NGBs in existence.
    In pursuit of their dreams, athletes of all levels have 
frequent contact with coaches and doctors and trainers and 
volunteers, who are given responsibility beyond simply enabling 
these young athletes to achieve excellence in their chosen 
sport. We entrust them with athletes' safety and their well-
being.
    These individuals often hold positions of great power and 
authority over the athletes. Not only can they control an 
athlete's training schedule or medical treatment, those very 
individuals often have a direct say in that athlete's career, 
such as deciding who competes in an upcoming event.
    As has become abundantly clear, too many authority figures 
have abused their power and influenced and harmed the very 
athletes that were trusted to them. Athletes have very little 
power, by comparison, and too many have been failed by the 
system that purports to protect them.
    Much attention has been paid to the case of Larry Nassar, 
in part because of the sickening number of athletes he abused. 
To date, hundreds of women and girls have come forward as 
victims of Nassar's abuse that spanned two decades.
    But the sad truth is, that abuse in the Olympic community 
extends well beyond Larry Nassar and USA Gymnastics. The U.S. 
Center for SafeSport, established in March of 2017, has already 
received 488 reports regarding sexual abuse involving 35 of the 
48 total NGBs.
    The committee has spoken with numerous survivors in the 
course of this investigation. And we thank all of them for 
their assistance in this work, and we know that their stories 
are not easy to tell.
    There were far too many similarities in what we heard. 
Individuals in positions of power not only abused their trust, 
but physically abused their persons. And when survivors sought 
help, far too many felt the system protected not them, but 
their abusers. They felt silenced.
    In the eyes of many survivors, the culture of medals and 
money won out over athlete safety and protection.
    Changes have been made in the Olympic community over the 
past decade, in particular within the last year, that show how 
things are moving in the right direction. However, many 
questions remain about whether the community has come far 
enough and moved fast enough. More must be done to ensure that 
athlete safety is the top priority of the USOC and the NGBs.
    Today this committee will examine how to protect young 
athletes now and in the future. Among our concerns are:
    Whether the culture within the Olympic community fosters a 
safe environment for victims to come forward;
    Whether the policies and procedures that have been put in 
place over the past several years are enforced in a way that 
promotes transparency and accountability;
    Whether the Center for SafeSport is the most effective 
organization it can be;
    And, whether the USOC has exercised its full authorities 
over the Olympic community when it comes to creating and 
enforcing policies that protect our athletes from sexual abuse 
and misconduct.
    So I look forward to hearing about what Congress can do 
further to improve and strengthen the system so we're actually 
protecting athletes at all levels, and all ages, in all sports.
    Thank you for being here as part of this discussion.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Thank you, Mr. Chairman, for leading this investigation and 
holding this important hearing today.
    Every one us in this room has an Olympic memory. For a 
select few, it is competing in the Olympic games on behalf of 
our Nation. For the vast majority of us, it is watching our 
athletes compete. The Olympics inspire and unite us as we cheer 
on our athletes with great pride. Our children watch the 
Olympics with the dream that one day they will get to compete 
at the most elite level and represent our country.
    But the system of ``organized sport'' headed by the USOC 
and 48 National Governing Bodies, or NGBs, is much bigger than 
the Olympics, and includes millions of athletes who don't 
compete at the highest levels of organized sport. The four NGBs 
before us today--Gymnastics, Taekwondo, Volleyball, and 
Swimming--collectively represent nearly 979,000 members. USA 
Swimming includes everyone from Michael Phelps to children 
competing in a local recreational league. And the same is true 
not just for the three other NGBs at the table today, but for 
all of the other NGBs in existence.
    In pursuit of their dreams, athletes of all levels have 
frequent contact with coaches, doctors, trainers, and 
volunteers who are given responsibility beyond simply enabling 
these young athletes to achieve excellence in their chosen 
sport; we entrust them with athletes' safety and well-being. 
These individuals often hold positions of great power and 
authority over the athletes. Not only can they control an 
athlete's training schedule or medical treatment, those very 
individuals often have a direct say in that athlete's career, 
such as deciding who competes in an upcoming event. As has 
become abundantly clear, too many authority figures have abused 
their power and influence and harmed the very athletes that 
trusted them. Athletes have very little power by comparison, 
and too many athletes have been failed by the system that 
purports to protect them.
    Much attention has been paid to the case of Larry Nassar, 
in part because of the stunning number of athletes abused by 
Nassar. To date, hundreds of women and girls have come forward 
as victims of Nassar's abuse that spanned two decades. But the 
sad truth is that abuse in the Olympic community extends well 
beyond Larry Nassar and USA Gymnastics. The U.S. Center for 
SafeSport, established in March of 2017, has already received 
488 reports regarding sexual abuse, involving 35 of the 48 
total NGBs.
    The committee has spoken with numerous survivors in the 
course of this investigation, and we thank all of them for 
their assistance in this work. We know that their stories are 
not easy to tell.
    There were far too many similarities in what we heard. 
Individuals in positions of power not only abused their trust, 
but physically abused their persons. And when survivors sought 
help, far too many felt that the system protected not them, but 
their abusers. They felt silenced. In the eyes of many 
survivors, the culture of ``medals and money'' won out over 
athlete safety and protection.
    Changes have been made in the Olympic community over the 
past decade, in particular in 2017, that show that the way 
these cases are handled is changing for the better. However, 
many questions remain about whether the community has come far 
enough and moved fast enough. More must be done to ensure that 
athlete safety is the top priority of the USOC and NGBs.
    Today this committee will examine the progress that has 
been made. Among our concerns are whether the culture within 
the Olympic community fosters a safe environment for victims to 
come forward; whether the policies and procedures that have 
been put in place over the past several years are enforced in a 
way that promotes transparency and accountability; whether the 
Center for SafeSport is the most effective organization it can 
be; and whether the USOC has exercised its full authorities 
over the Olympic community when it comes to creating and 
enforcing policies that protect our athletes from sexual abuse 
and misconduct. I also look forward to hearing about what the 
Congress can further do to help improve and strengthen the 
systems that protect athletes of all levels, and all ages.
    I thank our witnesses for being here today, and being part 
of this important discussion. I yield back.

    Mr. Walden. With that, I yield the balance of my time to 
the gentlelady from Indiana, Mrs. Brooks.
    Mrs. Brooks. Thank you, Mr. Chairman. And I want to thank 
you for holding this hearing today.
    Abuse of all kinds has come under close scrutiny across the 
country this past year. Sexual abuse in particular has shown 
itself to be far more pervasive and insidious that many would 
have imagined.
    Thanks to the diligent work of my hometown newspaper, the 
Indianapolis Star, we've learned about the revelations about 
Dr.Nassar and his systemic abuse of U.S. gymnasts, but also 
more about our Nation's Olympic athletes and what they've had 
to endure for so many years in their Olympic quest, and this is 
unacceptable.
    I'm proud that I led, along with a colleague, Lois 
Frankelfrom Florida. We saw the passage of the bill Protecting 
Young Victims from Sexual Abuse and Safe Sport Authorization 
Act of 2017.
    Our President signed into law in February of 2018 this 
bipartisan, game-changing bill that prioritizes the safety and 
well-being of our Nation's athletes, because we must ensure 
that our youth are safety when they go to the gym, when they 
take the ice, when they go out onto the field to practice their 
sport.
    Young athletes look to their coaches, their instructors, 
their trainers as role models. And our bill, now law, works to 
ensure that our athletic national governing bodies will support 
a culture within their organizations to foster safe and healthy 
relationships between coaches, instructors, trainers, and 
athletes, through their policies and procedures that will 
prevent, detect, and report allegations of abuse to law 
enforcement in an appropriate and timely manner.
    And I'm proud that this was signed into law, because our 
past, our present, and our future athletes, who are dedicating 
their lives to perfect their sport, the dream of the Olympic 
stage, need to be protected. They need to be safe and free from 
sexual abuse.
    And I thank you all for being here today. I look forward to 
your testimony.
    Mr. Harper. I ask unanimous consent that the Members' 
written opening statements be made part of the record. Without 
objection, they will be entered into the record.
    Additionally, I ask unanimous consent that Energy and 
Commerce members not on the Subcommittee on Oversight and 
Investigations be permitted to participate in today's hearing. 
Without objection, so ordered.
    I would now like to introduce our witnesses for today's 
hearing.
    First, we have Ms. Susanne Lyons, acting chief executive 
officer at the United States Olympic Committee.
    Next is Ms. Kerry Perry, president and chief executive 
officer at USA Gymnastics.
    Mr. Tim Hinchey, president and chief executive officer at 
USA Swimming.
    Mr. Steve McNally, executive director at USA Taekwondo.
    Then we have Mr. Jamie Davis, chief executive officer at 
USA Volleyball.
    And finally, Ms. Shellie Pfohl, president and chief 
executive officer at the U.S. Center for SafeSport.
    You're aware that the committee is holding an investigative 
hearing, and when doing so has had the practice of taking 
testimony under oath. Do you have any objection to testifying 
under oath?
    Let the record reflect that all witnesses have responded 
``no.''
    The Chair then advises you that under the rules of the 
House and the rules of the committee, you're entitled to be 
accompanied by counsel. Do any of you desire to be accompanied 
by counsel during your testimony today?
    Let the record reflect that all witnesses have responded 
no.
    In that case, if you would please rise. I ask you to raise 
your right hand, and I will swear you in.
    Do you swear that the testimony you're about to give is the 
truth, the whole truth, and nothing but the truth?
    Thank you. You may be seated.
    You're now under oath and subject to the penalties set 
forth in Title 18, Section 1001 of the United States Code.
    You may now give a 5-minute summary of your written 
statement.
    And we will begin with you, Ms. Lyons. You have a light 
system that's there that should turn yellow when you have a 
minute left and red when your 5 minutes are up.
    So, Ms. Lyons, welcome.

 STATEMENTS OF SUSANNE LYONS, ACTING CHIEF EXECUTIVE OFFICER, 
  UNITED STATES OLYMPIC COMMITTEE; KERRY PERRY, PRESIDENT AND 
 CHIEF EXECUTIVE OFFICER, USA GYMNASTICS; TIMOTHY HINCHEY III, 
 PRESIDENT AND CHIEF EXECUTIVE OFFICER, USA SWIMMING; STEPHEN 
MCNALLY, EXECUTIVE DIRECTOR, USA TAEKWONDO; JAMIE DAVIS, CHIEF 
EXECUTIVE OFFICER, USA VOLLEYBALL; AND SHELLIE PFOHL, PRESIDENT 
     AND CHIEF EXECUTIVE OFFICER, U.S. CENTER FOR SAFESPORT

                   STATEMENT OF SUSANNE LYONS

    Ms. Lyons. Thank you. Good morning, Chairman Harper, 
Ranking Member DeGette, and members of the subcommittee.
    Three months ago, I agreed to serve as the acting CEO of 
the U.S. Olympic Committee because I felt an obligation to help 
address the significant and important issues that bring us here 
today.
    Like you, I was deeply saddened and also angry to hear the 
statements of the girls and women who were the victims of Larry 
Nassar. I heard the powerful and compelling stories of victims 
and survivors, including those that had sought help from people 
in the Olympic community. They found the system unresponsive, 
needlessly complex, and fraught with risks to their Olympic 
dreams. This is appalling and unacceptable.
    The Olympic community failed the people it was supposed to 
protect. And I would like to apologize once again to those 
individuals and to their families, some of whom I believe are 
with us today. I know we can do better, and we will do better.
    When I accepted this role, I announced a series of 
initiatives to address issues of abuse and other structural 
weaknesses. We committed to providing funding for gymnastics 
and athletes from other sports affected by abuse. We committed 
to doubling our funding for the Center for SafeSport.
    We announced a governance review. And we committed to 
strengthen the voices of the athletes, both young and adult, in 
our community. And importantly, we reiterated our commitment to 
reform USA Gymnastics.
    Last year, we demanded the resignation of the USA 
Gymnastics CEO, and this year we required a complete turnover 
of the USA Gymnastics board, along with several additional 
reforms.
    Mr. Chairman, we are already making progress, but we have a 
long way to go. I would like to update the subcommittee on our 
efforts.
    First, we are redoubling our efforts with the Center for 
SafeSport. After only 1 year it is already clear that the 
Center is serving an essential role in protecting athletes.
    The Center has experienced a significant increase in the 
number of reports of abuse. And although any report is 
disheartening, that's the reason we need the Center. It 
provides a safe and independent path for athletes to report 
these concerns.
    We doubled our grant to the Center to $3.1 million this 
year to enable it to hire more investigators and to resolve 
cases more quickly. We are also working with the Center to 
identify potential improvements in their policies and 
procedures.
    Second, we are listening to and enhancing the voices of 
athletes in the community through athlete surveys and through a 
series of athlete working sessions.
    Third, we announced a governance review to inform our 
engagement with the national governing bodies and athletes and 
our oversight of the Olympic movement in the United States. We 
need to make sure that we are organized and empowered to take 
appropriate steps to protect athletes.
    Rebuilding gymnastics is the fourth category. We committed 
to a $1.3 million grant to the National Gymnastics Foundation 
entirely for athlete assistance programs, medical support, and 
counseling.
    We are in nearly constant contact with CEO Kerry Perry, the 
Gymnastics interim board, and others at Gymnastics. Recently, 
we supported Gymnastics as they established that interim board, 
and we supported them as they made governance reforms to 
implement best practices.
    Even as we move ahead, a fifth category of effort will 
develop in the coming months when we receive the report of the 
independent investigation of Nassar's abuse.
    The investigation covers both the Olympic Committee and USA 
Gymnastics, as well as any other relevant information on abuse 
that the investigation reveals. We will make that report public 
in its complete and unabridged form, and we will take whatever 
actions are appropriate based on the report's findings.
    We have made significant progress in strengthening 
protections for athletes over the last few years, but our 
collective efforts must not cease. We must support the victims 
and survivors and honor those who have stood up against abuse. 
We promise to lead the Olympic community to bring real and 
lasting change.
    I would be happy to answer your questions.
    [The prepared statement of Ms. Lyons follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
       
    Mr. Harper. Thank you, Ms. Lyons.
    The Chair will now recognize Ms. Perry for 5 minutes for 
the purposes of your opening statement.

                    STATEMENT OF KERRY PERRY

    Ms. Perry. Chairman Harper, Ranking Member DeGette, members 
of the Oversight and Investigations Subcommittee, thank you for 
inviting me to testify today at this very important hearing.
    For more than 50 years, USA Gymnastics has served as the 
national governing body for the sport in the United States. We 
have many responsibilities to the gymnastics community. None 
are more important than the safety and well-being of our 
athletes.
    Like all of you, I was appalled and sickened by the 
despicable crimes of Larry Nassar. We must do better.
    I came on board at USA Gymnastics in December from outside 
the sport and the Olympic movement. My singular goal and the 
reason I accepted this mission is to create a supportive and 
empowering culture that helps our athletes achieve their 
gymnastics dreams in an empowering culture.
    First, I want to apologize to all who were harmed by the 
horrific acts of Larry Nassar. I was in the courtroom to listen 
to the incredibly courageous women explain in vivid and painful 
detail the damage he did to their lives. Their voices will not 
be forgotten.
    I commit to you that I will keep their words and 
experiences at the core of every decision I make, every day, as 
the leader of this organization. Their stories have broken my 
heart, but they've also strengthened my resolve.
    Let there be no mistake, those days are over. USA 
Gymnastics is on a new path, with new leadership and a 
commitment to ensure this never happens again.
    Since December 2017, we have embarked on a mission to 
implement a culture that puts athletes first. To that end, we 
are working hard to regain the trust and confidence of our 
athletes, their families, and all who are a part of our 
gymnastics community.
    In the past 5 months, here are just a few of the bold 
decisions to put USA Gymnastics on a new course:
    We closed the National Training Center at the Karolyi 
Ranch.
    We made difficult personnel decisions to ensure that USA 
Gymnastics has a fresh start.
    We fully support the U.S. Olympic Committee and 
congressional investigations that we hope will shed light on 
how Nassar was able to commit these horrific crimes.
    We fully support Federal legislation, now a law, that will 
help safeguard amateur athletes.
    We expanded our SafeSport department to include five new 
positions, four of which will live in the regions that they 
cover throughout the United States, to better support, train, 
educate, and serve our members.
    We created an Athlete Task Force where our athletes will 
help shape our organization's future and its strategic and 
operating decisions.
    We continue to implement the Deborah Daniels 
recommendations stemming from an independent evaluation of USA 
Gymnastics policies.
    We are strongly enforcing the USA Gymnastics SafeSport 
Policy that requires mandatory reporting to find specific types 
of misconduct, set standards for grooming behavior, and 
establish greater accountability.
    We made reporting of abuse easier with a dedicated toll-
free number and online reporting.
    We are amending our bylaws to support the cultural 
commitment to athlete safety and to help enforce SafeSport 
policies.
    We are educating and training our staff, our board, and our 
members on the new SafeSport Policy. I am pleased to report 
that our staff and our board are 100 percent SafeSport 
compliant.
    Beginning in 2018, all professional and club members must 
be SafeSport certified as a condition of membership.
    We are participating in mediation in order to resolve the 
athletes' claims fairly and expeditiously.
    And we created an Athlete Assistance Fund, in cooperation 
with the National Gymnastics Foundation, to provide survivors 
of abuse with the needed financial resources for counseling and 
medical services.
    These necessary changes are not just amendments to our 
policies, they are part of a cultural shift that reflects our 
commitment to prioritize the safety of our athletes and 
members. We will hold our organization to the highest standards 
of care in order to become the standard bearer of change.
    I am testifying today on behalf of the new USA Gymnastics, 
because right now there's a parent driving their child to 
gymnastics class. I want that parent to know that we are doing 
everything we can every day to protect your child.
    Athlete safety must be at the forefront of everything we 
do. We have taken decisive action to grow into a more athlete-
centered organization, committed to helping our athletes 
fulfill their dreams in a safe and supportive environment.
    Out of respect for those who have stood on the podium under 
the United States flag, and out of devotion to the aspiring 
young athletes who set foot in gyms every day, we must and we 
will emerge stronger and safer.
    Thank you. And I'm happy to answer your questions.
    [The prepared statement of Ms. Perry follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Mr. Harper. Thank you, Ms. Perry.
    The Chair will now recognize Mr. Hinchey for 5 minutes.

                STATEMENT OF TIMOTHY HINCHEY III

    Mr. Hinchey. Chairman Harper, Ranking Member DeGette, and 
the members of the subcommittee, thank you for the opportunity 
to testify today.
    In 2010, USA Swimming faced its own reality that children 
and swimmers were being sexually abused in sport.
    USA Swimming apologizes, acknowledges and deeply regrets 
the abuse suffered by children, athletes, and other 
participants in swimming programs.
    Participation in sport should offer physical, social, and 
emotional benefits, but for some it has resulted in abuse and 
trauma that will negatively impact the rest of their lives. 
That is inexcusable. And like those who sit before me today, I 
am deeply committed to providing a safe and healthy environment 
for children to grow, play, and compete.
    While recognizing that much work remains to be done, let me 
describe the steps USA Swimming has taken.
    In 2010, USA Swimming established a comprehensive abuse 
prevention and response program called SafeSport.
    USA Swimming hired an athlete protection officer, the first 
position of its kind in the Olympic movement, and established a 
national SafeSport Committee.
    Over the past 8 years, the SafeSport program has evolved. 
Over 90 individuals have been banned from membership for sexual 
misconduct, and it is published on USA Swimming's ban list.
    Criminal background checks have been enhanced. Currently, 
we conduct monthly recurring reports on our 50,000 nonathlete 
members, resulting in approximately 600,000 annual background 
checks of adults who have access to children.
    We have over 80 individuals dedicated to championing 
SafeSport athletes and efforts at the local, regional, and 
national level.
    Educational initiatives have also increased. Over 10,000 
individuals have received SafeSport training in in-person 
workshops or conferences.
    Finally, a victims assistance fund called SwimAssist has 
been established.
    However, I regret we continue to receive reports of child 
sexual abuse in swimming. The organization can, should, and 
will do more, and I will lead that effort.
    I'm the father of six, three girls and three boys, ages 30 
to 11, and I'm a swimmer. Upon assuming the role of president 
of USA Swimming in July of 2017, I recognized SafeSport's 
significance to the organization. And the opportunity to work 
with the subcommittee in this investigation has only 
intensified my commitment to make protecting children and 
athletes USA Swimming's absolute top priority.
    To that end, we have a number of new initiatives under way 
and we are vetting even more. The SafeSport-recognized club 
program will enhance athlete protection efforts at all levels, 
especially the local level. The ``Training the Trainers'' 
program will increase the number of advocates spreading the 
SafeSport message throughout our organization.
    I have and will continue to meet with and engage with 
survivors of abuse to ensure that we hear their voices and we 
learn from their experiences.
    In addition to its own efforts, USA Swimming will continue 
to be a responsible leader, steward, and member of the Olympic 
sport community.
    USA Swimming embraces its obligations under the Protecting 
Young Victims from Sexual Abuse and Safe Sport Authorization 
Act and already has policies in place that require reporting, 
prohibit retaliation, and limit one-on-one interactions between 
adults and children.
    Further, USA Swimming supports the U.S. Center for 
SafeSport and is fully committed to its success.
    While we cannot change the past, we will learn from it and 
we will do better. Our commitment to preventing child sexual 
abuse and providing a safe and healthy environment for our 
athletes is constant and long-lasting.
    Thank you, and I look forward to answering your questions.
    [The prepared statement of Mr. Hinchey follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Harper. Thank you, Mr. Hinchey.
    The Chair now recognizes Mr. McNally for 5 minutes.

                  STATEMENT OF STEPHEN MCNALLY

    Mr. McNally. Mr. Chairman, Ranking Member DeGette, and 
members of the subcommittee, for just under 8 months I have 
served as executive director of USA Taekwondo.
    I thank the committee for the opportunity to express my 
personal commitment, and the commitment of USA Taekwondo under 
my leadership, to ensuring that athletes are protected from 
sexual misconduct within the U.S. Olympic community, as well as 
all those participating in sports outside the Olympic movement.
    For the purposes of background, USA Taekwondo was formed in 
2004 to assume responsibility as the national governing body 
for Taekwondo after the dissolution of the previous governing 
body, the United States Taekwondo Union.
    Very few records exist from the USTU era, and no continuity 
exists between USTU and USAT with regard to the organization's 
board of directors, leadership, or senior staff.
    From the information and documents that I have accumulated 
since becoming executive director in September of last year, I 
have concluded that the organization's response to complaints 
prior to 2015 varied as administrations, boards, and ethics 
committees changed personnel.
    USA Taekwondo has always sought to balance its obligation 
to protect members from misconduct, while also abiding by the 
requirements to protecting the rights of the accused.
    In 2015, following allegations by an athlete of sexual 
assault at the hands of USAT coaches, USA Taekwondo immediately 
retained Denver attorney Donald Alperstein from a firm 
specializing in amateur sports law since 1985 to serve as an 
independent outside counsel.
    From this point forward, USA Taekwondo has relied on its 
outside counsel to investigate all of USAT history in an effort 
to uncover any previously unreported incidents of sexual 
assault and misconduct, and to pursue sanctions against 
defendants.
    Outside counsel operated without any limitation on its 
budget, with no control by USA Taekwondo as to whom he should 
or should not pursue, and with only rudimentary intermittent 
reporting requirements to USA Taekwondo.
    At the direction of outside counsel, in conjunction with 
the support of USA Taekwondo leadership, a number of measures 
were implemented immediately following its engagement to 
address pending allegations of misconduct, discover additional 
claims, and execute remedies to ensure the safety and security 
of USA Taekwondo athletes.
    The investigation was conducted by outside counsel hired at 
the direction it USA Taekwondo and succeeded in exposing 
evidence of misconduct within USA Taekwondo and USTU as early 
as 1994.
    However, as one might imagine, the pursuit of sanctions 
against defendants proved to be somewhat elusive, with many 
victims hesitant to reopen old wounds and reluctant to discuss 
matters about which their families, friends, or employers were 
unaware. Some victims could not be located, and some were 
unavailable for a variety of other reasons, including 
incarceration.
    Several victims eventually disclosed information to outside 
counsel but only on the condition that they could do so 
confidentially and would not be compelled to testify without 
further discussion. And to this day, outside counsel has raised 
some concern over sharing information he received only through 
providing these promises.
    The committee has expressed an interest in Steven and Jean 
Lopez. To summarize, a lifetime ban has been imposed on Jean 
Lopez, and Steven Lopez is under a temporary suspension pending 
disposition of his case by SafeSport.
    I do want to emphasize USA Taekwondo submitted evidence 
gathered concerning these allegations to the FBI, the 
Sugarland, Texas, Police Department, the Fort Bend County, 
Texas, Sheriff's Office, and the Colorado Springs Police 
Department.
    With the creation of SafeSport in March 2017, all cases 
still pending in outside counsel's investigation were 
transferred.
    Personally, it is my strong commitment to be part of the 
solution. And under my leadership, USA Taekwondo has already 
taken additional efforts to become more proactive in the area 
of athlete protection.
    These include the immediate referral of any and all sexual 
abuse allegations to SafeSport, and the referral of any 
allegations involving a potential crime to relevant law 
enforcement agencies.
    We immediately suspend an individual upon receipt of a 
direct allegation if we believe there is a threat to athletes 
currently, or clear evidence of an allegation being true.
    We now ensure leadership on any official trip contains both 
genders. We require SafeSport training now for all referees. 
We've introduced mandatory background checks and SafeSport 
training for vendors even who are working at our events.
    And we have just engaged a group called Fighting Spirit, 
which provides education on sexual misconduct. All minor 
national teams athletes will be required to take this training 
in the future.
    Finally, next month USA Taekwondo will launch the 
#notinmysport education campaign, with the goal of informing 
participants throughout the sport as to what is acceptable 
behavior and what constitutes a violation, and also to empower 
our athletes to stand up and make their statement on social 
media channels.
    There is no doubt more work to be done. The entire Olympic 
family must ensure that funding and resources remain available 
to SafeSport.
    Thank you, and I'm ready to answer your questions.
    [The prepared statement of Mr. McNally follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Harper. Thank you, Mr. McNally.
    The Chair will now recognize Mr. Davis for 5 minutes.

                    STATEMENT OF JAMIE DAVIS

    Mr. Davis. Chairman Harper, Ranking Member DeGette, members 
of the subcommittee, I want to thank you for affording me an 
opportunity to speak with you today and to share with you USA 
Volleyball's commitment to the safety our athletes.
    I joined USA Volleyball as its CEO in January of 2017, and 
in that timeframe I have been proud to lead an organization 
that respects all of our participants and places the highest 
value on personal safety before medal counts.
    USA Volleyball actively encourages our members to report 
any and all incidents regarding sexual misconduct or abuse, and 
we provide them a safe environment to express their concerns. 
We report and investigate any allegation brought forward, and 
we have the obligation to take appropriate action, if 
necessary. This is the core of our values.
    USA Volleyball has long championed a culture of protection 
of all participants. We were one of the first NGBs to implement 
a robust background screening policy. Beginning in the 2004-
2005 volleyball season, USA Volleyball starting working with 
nationally respected background screening company SSCI and 
implemented a policy requiring individuals who participate with 
junior volleyball clubs to submit to a background screening.
    Recognizing a need to do more to protect athletes of all 
ages, USA Volleyball formed a commission in 2010 to address 
participant safety, named the Special Commission on Athlete 
Safeguards. This commission set out to review the current 
trends and best practices in athlete safety and produce 
recommendations for USA Volleyball to implement.
    The recommendations of the commission were extensive, but 
included: one, developing a procedure for reporting sexual 
harassment or abuse allegations;two, formulating written 
policies that define inappropriate behavior; and three, 
providing continual education on these kinds of topics to USA 
Volleyball participants and parents.
    The commission's work paved the way for USA Volleyball to 
establish early SafeSport policies and procedures before it was 
even called SafeSport. We are proud to have been a very early 
endorser of a SafeSport program and supporter of the U.S. 
Center for SafeSport.
    As I hope is evident, USA Volleyball has long considered 
the safety of our athletes to be a top priority. This priority 
was not suddenly created in response to recent headlines or as 
a result of mounting public scrutiny, but done so because many 
years ago we recognized protecting our athletes and members as 
the right thing to do.
    I would like to address the case of Mr. Rick Butler, who 
has made headlines in the volleyball world. Mr. Butler is a 
well-known private volleyball club owner and coach in the 
Chicagoland suburb of Aurora, Illinois.
    His club, Sports Performance Volleyball, is not owned or 
operated by USA Volleyball; however, its athletes and coaches 
are required to be members of USA Volleyball if they wish to 
participate in USA Volleyball-sanctioned events.
    In 1995, allegations of sexual misconduct were brought 
forth by three women that took place while they were members 
and played at his privately owned club. The women claimed that 
Mr. Butler had a sexual relationship with them in the 1980s 
while he was their coach and while they were under the age of 
18.
    As a result of those allegations, in 1995 USA Volleyball 
found that Mr. Butler had violated our rules, and as a result, 
they voted to ban him for life.
    After 5 years passed and upon Mr. Butler's request for 
reinstatement, USA Volleyball voted to conditionally reinstate 
Mr. Butler's membership in the year 2000 under the limitation 
of Mr. Butler's inability to ever coach junior girls in USA 
Volleyball-sanctioned events.
    To be clear, regardless of all the headlines surrounding 
this matter, and since the year 1995, Mr. Butler has been 
banned from coaching junior girls under USA Volleyball, a 
condition of his lifetime ban that never changed.
    Furthermore, these allegations are a result of Mr. Butler's 
activities as a club director and coach for his privately owned 
club and not a part of USA Volleyball national team programs.
    In late 2016, several brave women came forward to USA 
Volleyball to provide new allegations against Mr. Butler for 
sexual misconduct dating back to the 1980s. Based on these 
women's claims, USA Volleyball filed new charges against Mr. 
Butler. And in January of 2018, USA Volleyball's Ethics and 
Eligibility Committee held a hearing regarding these 
allegations.
    Mr. Butler was once again found to have violated our rules, 
and as a result, Mr. Butler was banned from total participation 
in USA Volleyball for life without the possibility of 
reinstatement.
    Our efforts were recently applauded by the CEO of Champion 
Women, Ms. Nancy Hogshead-Makar, one of the Nation's most vocal 
advocates for women's rights in sports. In her letter addressed 
to me on April 2, 2018, Ms. Hogshead-Makar wrote in part, 
quote:
    ``We are reaching out today to thank you for banning Rick 
Butler from volleyball for his sexual predation of young girls. 
It took a lot to be the first organization to ban him, and we 
are grateful for your strong commitment to the victims and 
safety of all athletes. We are optimistic that these efforts 
will make a difference the next time any sports organization 
has to make a call to investigate, hold a hearing, or ban a 
member, if necessary,'' end quote.
    I do not pretend that we have been perfect, nor do I ignore 
the fact that there have been some offenders in our midst. I 
encourage anyone listening to me today that if you have 
information of any misconduct within our organization, past or 
present, please contact our offices or the U.S. Center for 
SafeSport. We will listen, and we will act.
    We want to create the most safest, most enjoyable 
atmosphere for volleyball players of all ages and look forward 
to a day when there is no sexual abuse or misconduct in 
volleyball. We will do everything we can to make this a 
reality, and we look forward to working with others to do so.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Davis follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Mr. Harper. Thank you, Mr. Davis.
    The Chair will now recognize Ms. Pfohl, the president and 
CEO of the U.S. Center for SafeSport.

                   STATEMENT OF SHELLIE PFOHL

    Ms. Pfohl. Thank you, Chairman Harper, Ranking Member 
DeGette, and members of the committee.
    It is my privilege to serve as president and CEO of the 
United States Center for SafeSport, an independent, nonprofit 
organization in Denver, Colorado.
    The Center is dedicated to making athlete well-being a 
centerpiece of our Nation's sports culture. Let me say that 
again. Our Center is dedicated to making athlete well-being the 
centerpiece of our Nation's sports culture through abuse 
prevention, education, and accountability.
    Far too many of our Nation's athletes have suffered abuse 
at the hands of perpetrators who take advantage of a sports 
environment where athletes form bonds with their coaches, 
trusted adults, and teammates. As you said, Mr. Chairman, if 
one athlete is abused, it's one too many.
    I know from experience that sport at its core builds 
character, promotes healthy lifestyles, and develops self-
confidence. We are here today because we never want to lose 
sight of those values.
    Our March 3, 2017, we opened our doors as an independent 
entity and started taking reports on day one. Today our 
operations include a 9-member board and 14 full-time employees.
    Thanks to the support from Congress and the leadership of 
Representative Brooks, we were recognized in the Protecting 
Young Victims from Sexual Abuse and Safe Sport Authorization 
Act, which became law in February.
    Among the many safeguards it put in place, the law requires 
that anyone working in amateur sports must immediately report 
the suspected abuse of minors to law enforcement and prohibits 
retaliation against those who choose to come forward.
    Adults who have regular contact with minors in Olympic and 
Paralympic sports must now complete mandatory SafeSport 
training, adhere to best practices, policies, and procedures, 
like the SafeSport code.
    The code specifically outlines and prohibits forms of abuse 
and misconduct and defines the processes surrounding reporting. 
Reports can be made through the Center's Web site or by calling 
our office.
    I want to stress that anyone who is listening, reports can 
be made anonymously and there is no statute of limitation.
    The safety and well-being of those we serve is our 
priority. Our qualified investigators are trained to handle 
each report with care through the industry best practice of 
trauma-informed response.
    Before I go into the numbers, I want to underscore that we 
never lose sight of the fact that behind these numbers are 
people, men, women, boys, and girls, dealing with the lingering 
effects of abuse.
    In our first year, we responded to more than 500 reports 
and inquiries. This year, we expect that number to more than 
double.
    Let me put it into perspective for you. This time last 
year, we were getting 20 to 30 reports per month. Now we're 
getting 20 to 30 reports per week.
    So far, we have issued 169 sanctions, including sanctioning 
142 individuals with permanent ineligibility. That's no small 
detail, 142 individuals are permanently unable to coach or 
participate in Olympic and Paralympic sports. These adults are 
listed in our online searchable database, which is available to 
anyone who wants to use it.
    The volume of reports speaks to the critical need of the 
Center. We know how hard it is for victims to come forward. Our 
goal is to continue building trust while establishing a culture 
where everyone feels safe, supported, and empowered to report, 
with the ultimate objective to end all forms of abuse.
    In addition to investigating reports, we also provide 
outreach, education, and training, not only for athletes and 
coaches, but for parents and youth sport organizations at all 
levels. In our first year, almost 400,000 people completed our 
online training and hundreds more have expressed interest in 
accessing it.
    This past year was a step in the right direction, and I 
know we have a lot more work to do.
    In closing, sport has the power to be an incredibly 
positive influence on participants, communities, and our 
Nation. I thank you for helping us to prioritize our important 
mission to champion respect and end abuse.
    Thank you.
    [The prepared statement of Ms. Pfohl follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    Mr. Harper. Thank you, Ms. Pfohl.
    The Chair will now begin the questioning by the Members. 
And we are going to ask unanimous consent that the contents of 
the document binder be introduced into the record and to 
authorize staff to make any appropriate redactions.
    Without objection, the documents will be entered into the 
record with any redactions that staff determines are 
appropriate.\1\
---------------------------------------------------------------------------
    \1\ The information has been retained in committee files and also 
is available at  https://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=108356.
---------------------------------------------------------------------------
    Mr. Harper. Ms. Lyons, if I may ask you some questions.
    Does the USOC see itself as responsible for overseeing and 
enforcing policies that keep athletes safe?
    Ms. Lyons. Yes, I think that we do view ourselves as 
responsible. And I think if we have had a failing, it is that 
we have not adequately exercised our authority in that manner.
    Mr. Harper. My question was, is that your responsibility? 
And you've answered yes.
    Ms. Lyons. Yes, I believe it is.
    Mr. Harper. Is it a top priority for the USOC?
    Ms. Lyons. It is a top priority.
    Mr. Harper. And I'm glad you said that and view it that 
way, but we're all worried that it hasn't always been the case.
    If you could look at the document binder that's before you 
there and turn to Tab 1.
    In Tab 1 you're going to see a Washington Post article 
dated February the 23rd of 2018. Do you see that?
    Ms. Lyons. Yes, I do.
    Mr. Harper. The article references a deposition in a 2016 
lawsuit in which a Taekwondo athlete alleged that she was raped 
by her coach at the USOC's Olympic Training Center.
    USOC's lawyer, Gary Johansen, was asked whether protecting 
athletes from abuse was a top priority for the USOC. His 
response: ``The USOC does not have athletes.''
    Does the USOC believe that it has the authority to require 
NGBs to implement policies and procedures?
    Ms. Lyons. Yes, I believe the act does grant us that 
authority. And I think a change we need to make is for us to 
exercise that authority more thoroughly.
    Mr. Harper. The USOC provides NGBs with governance support, 
and in some instances the USOC has required changes to an NGB's 
bylaws related to the act or the USOC's bylaws. Is that 
correct?
    Ms. Lyons. That's correct.
    Mr. Harper. However, each NGB has their own governance 
structure and applicable bylaws and policies. Is that true?
    Ms. Lyons. Yes, that is true.
    Mr. Harper. As I mentioned in my opening statement, you can 
have all of the policies and procedures in the world, but if 
they're not properly implemented, followed, or enforced, 
they're not doing much good.
    The USOC engaged Baker Tilly to conduct audits of the USOC 
in all of the NGBs and high performance management 
organizations to assess their compliance with SafeSport 
policies and procedures. The audit reports for each 
organization were issued last year in October 2017. Some of the 
organizations were found to be in compliance with the SafeSport 
policies and procedures and didn't have any observations, but 
many were found to have deficiencies.
    Do you know how many audits found deficiencies?
    Ms. Lyons. Yes. In fact at that time the majority had 
deficiencies. However, I am pleased to say that virtually all 
are now in compliance.
    Mr. Harper. Would it be fair to say that 43 NGBs had 
deficiencies?
    Ms. Lyons. That's correct.
    Mr. Harper. The audit of the USOC itself also found a 
number of deficiencies for USOC. If you could turn to Tab 2 in 
your notebook there.
    In Tab 2, you'll see that audit. And these included a lack 
of guidance and specific requirements on anonymous or 
confidential reporting by survivors, training, and background 
checks, to name a few.
    Unlike the NGBs with deficiencies, however, there doesn't 
appear to have been a follow-up audit of the USOC. Do you plan 
to conduct a follow-up audit?
    Ms. Lyons. Let me just have a moment to review this.
    Mr. Harper. Yes, ma'am.
    Ms. Lyons. Yes. Having looked at this, I think to any 
extent where we have deficiencies it is required that we should 
do exactly the same thing that we expect of the NGBs, we should 
have a follow-up audit and ensure that we are, ourselves, in 
compliance.
    Mr. Harper. What ability does the USOC have to enforce 
policies and procedures?
    Ms. Lyons. I think the act grants us a great deal of 
authority.
    I think one of the areas that we most need to look at--and 
this is why we have introduced a governance review--is that we 
have two main levers, we can take away funding or we can 
decertify. Our main activity is to decide if an NGB is 
certified.
    Mr. Harper. So you can decertify, you can put them on 
probation or you can withhold funds.
    Ms. Lyons. Correct.
    Mr. Harper. Is that correct?
    Ms. Lyons. That is correct.
    Mr. Harper. So you have a number of tools at your disposal.
    What circumstances would it take to warrant that the USOC 
take such action? What do you have to see? What would you have 
to see in behavior by an NGB to decertify or to withhold funds? 
What are you looking for?
    Ms. Lyons. We look for a number of things. They include the 
ability to manage effectively; and administratively we look for 
them to have appropriate financial controls.
    And in the recent years we have also added a very 
incredibly important requirement that they meet all of the 
SafeSport standards, that they have just implemented all the 
new language that is in the new legislation.
    So we have increasingly added to our list of compliance 
that they must have these SafeSport protections, and we audit 
against that on a regular basis now.
    Mr. Harper. My time has expired.
    The Chair will now recognize the ranking member of the 
subcommittee, Ms. DeGette, for 5 minutes.
    Ms. DeGette. Thank you so much, Mr. Chairman. I would like 
to follow up on your questioning.
    Ms. Lyons, I think that you testified there's roughly 49 of 
these NGBs. And as we heard today, just from a representative 
sample, every group has their own governing principles. Is that 
correct?
    Ms. Lyons. That is correct.
    Ms. DeGette. And that's probably why it is really important 
that we have an organization like the Center for SafeSport so 
they can have an overriding protocol for complaints of this 
nature. Isn't that correct?
    Ms. Lyons. Yes, I totally agree.
    Ms. DeGette. And that's, in fact, one reason why the Center 
for SafeSport was founded in March of 2017, just a little over 
a year ago. Is that right?
    Ms. Lyons. That's correct.
    Ms. DeGette. Now, I want to turn to you, Ms. Pfohl, because 
you testified that last year the Center for SafeSport had about 
20 to 30 complaints per month. This year it is 20 to 30 per 
week. And you have got about 800 reports pending right now. Is 
that right?
    Ms. Pfohl. No, ma'am. Thank you for the question. We have 
had over 800 total reports----
    Ms. DeGette. I see.
    Ms. Pfohl [continuing]. To come in since we opened our 
doors.
    Ms. DeGette. In the roughly 14 months, you have had 800 
reports.
    Ms. Pfohl. Correct, correct.
    Ms. DeGette. Now, in a May 17 submission to this committee 
SafeSport reported that the U.S. Olympic Committee provided 
$2.7 million in 2017 and is going to provide roughly $3.1 
million for 2018 and $3.1 million for 2019, the same amount for 
2019. Is that right?
    Ms. Pfohl. Yes, ma'am.
    Ms. DeGette. Now, getting back to your testimony, I think 
you had said, ever since the #MeToo movement--you told me this 
yesterday--ever since the #MeToo movement, the Center for 
SafeSport has seen the number of complaints skyrocket. Is that 
right?
    Ms. Pfohl. Definitely, between the #MeToo movement and the 
Nassar trial.
    Ms. DeGette. And the Nassar trial.
    Ms. Pfohl. We really saw an uptick.
    Ms. DeGette. It has really gone up this year. Is that 
right?
    Ms. Pfohl. Uh-huh.
    Ms. DeGette. And that's probably a good thing, because 
people realize they can report and what you're doing. Is that 
right?
    Ms. Pfohl. Yes, ma'am.
    Ms. DeGette. So you get money from the U.S. Olympic 
Committee for your funding. You also get money from the 
different NGBs according to a schedule for how much they're 
giving. Is that right?
    Ms. Pfohl. Yes. Each national governing body gives us an 
annual fee based on their size.
    Ms. DeGette. Now, what is your budget right now?
    Ms. Pfohl. Right now it is a little over $4.6 million.
    Ms. DeGette. And how many investigators do you have on 
staff.
    Ms. Pfohl. Internally we have five full-time investigators 
plus three additional support staff. We have seven external 
contracted investigators, as well.
    Ms. DeGette. So you have roughly 13.
    Ms. Pfohl. Twelve or 13.
    Ms. DeGette. Twelve or 13 people. Do you believe that's 
sufficient with the increase in complaints to thoroughly 
investigate every complaint?
    Ms. Pfohl. No.
    Ms. DeGette. Mr. Hinchey, I want to talk to you for a 
minute, because I also spoke with you yesterday. Do you believe 
the Center for SafeSport has sufficient funding to be able to 
investigate all of these complaints that they're getting?
    Mr. Hinchey. I'm not familiar with their entire budget, but 
I think based on our experience right now they can certainly 
use more resources.
    Ms. DeGette. Now, over at your organization you give 
$50,000 a year to Center for SafeSport, is that right, as part 
of your----
    Mr. Hinchey. Just under that, about 43,000.
    Ms. DeGette. And you would be willing to give more. Is that 
correct?
    Mr. Hinchey. Absolutely. I think as one of the larger NGBs, 
and based on who we are, if we can provide more resources we 
absolutely will.
    Ms. DeGette. Now, Ms. Lyons, the U.S. Olympic Committee, 
according to the most recent tax filing, the organization's 
revenues are in the hundreds of millions of dollars. Is that 
correct, Ms. Lyons?
    Ms. Lyons. That's correct.
    Ms. DeGette. And so I want to ask you, are you committed to 
giving the full funding that SafeSport needs to be able to 
conduct thoroughly all the investigations of the many 
complaints they're receiving?
    Ms. Lyons. Yes. And our board has said if they express 
additional need, we will certainly revisit that.
    Ms. DeGette. And, Ms. Pfohl, are you engaging outside 
evaluators to determine what kind of a budget that you really 
need to do a thorough investigation?
    Ms. Pfohl. Yes, we are.
    Ms. DeGette. And when do you expect that information?
    Ms. Pfohl. I would hope that we would, in the next 6 weeks, 
we would be able to come back and provide an estimate based on 
what we're seeing now.
    Ms. DeGette. OK. Let me just say this committee is fully 
supportive of what your organization was established to do, and 
it appears that the entire community, athletic community is.
    And so whatever money you need to actually do your work, 
please let us know and we will work with you and the USOC and 
all of the different organizations to make sure you get that. 
Because that's really going to be critical to resolving all of 
the issues relating to these victims, and that's what we want 
to do.
    Ms. Pfohl. Yes, ma'am.
    Ms. DeGette. Thank you very much, Mr. Chairman.
    Mr. Harper. The Chair now recognizes Chairman Walden, the 
chair of the full Committee on Energy and Commerce, for 5 
minutes.
    Mr. Walden. Thank you, Mr. Chairman.
    Ms. Lyons, there appears to be a history of the USOC 
knowing about allegations of sexual abuse and doing nothing.
    Over the years, the USOC has taken a number of positions on 
how much authority it has to protect athletes. USOC officials 
have said they, quote, ``don't have athletes,'' close quote, 
that the Ted Stevens Act doesn't you the authority to mandate 
that the NGBs take action on this issue.
    As recently as 2016, USOC officials said in a deposition 
that they don't have the authority to, quote, ``do anything,'' 
close quote, if the USOC was concerned about the safety of 
athletes.
    So I want to ask you a simple question: What precisely is 
the authority of the USOC when it comes to protecting athletes?
    Ms. Lyons. I think the act gives us a much broader 
authority than we have exercised in the past.
    Mr. Walden. So one of the concerns that the committee has 
heard repeatedly from survivors is that the USOC is more 
concerned about its own reputation, about medals and money, 
than it is about athlete safety.
    If you would please turn to Tab 3 in the binder, the 
exhibit binder. As you're finding that, I'll just mention this 
is a USOC policy document on athlete safety issued just last 
month. Tab 3.
    If you'll turn to page 7 of Tab 3, there is a list of six 
items that a review panel of USOC officials will consider, 
quote/unquote, in deciding a complaint and imposing a sanction.
    Can you explain why one of the factors to consider is, and 
I quote, ``the effect on the USOC's reputation''?
    Ms. Lyons. I have to admit to not having seen that before. 
And I have to say it does not belong on that list.
    Mr. Walden. OK. I appreciate that candor.
    This was not the only document produced to the committee 
that referenced the effect on the USOC's reputation. There's 
also similar language in the USOC SafeSport policy from June of 
2017--that would be on Tab 4--and in the USOC's training access 
protocol from 2011--Tab 5--when the USOC and NGBs would have 
still been responsible for handling complaints of sexual abuse.
    So I would encourage you to review those and act 
appropriately.
    Ms. Lyons. Thank you. We will.
    Mr. Walden. Ms. Pfohl, I'm heartened by the progress that's 
been made since the creation of SafeSport last year, but I want 
to make sure that the reputation of the USOC or an NGB does not 
play a role in SafeSport decisions.
    According to SafeSport policies a factor, quote/unquote, 
relevant to determining an appropriate sanction is the, and I 
quote, ``real or perceived impact of the incident on the 
reporting party, NGBs, or USOC.'' Tab 30, page 9.
    Again, why is the impact on the NGB or the USOC a factor in 
considering whether a SafeSport violation has occurred and 
whether to issue a sanction? That would be Tab 30 on page 9.
    Ms. Pfohl. Thank you, sir. Thank you for the question.
    I believe what this is referencing is that if conduct is 
such that it reflects poorly on the sport and those that 
support the sport, then that can be used in terms of making an 
appropriate sanction. Meaning that conduct, poor conduct----
    Mr. Walden. I understand.
    Ms. Pfohl [continuing]. And its poor reflection on the 
sport matters.
    Mr. Walden. I would just say that, you know, we do a lot of 
legislating around here, and words matter. And what you think 
they are and what I think they are, 2 or 3 or 4 or 5 years from 
now somebody may go, ``Oh, well, if we do that, that might 
reflect poorly on the organization if word gets out.''
    And I would just caution all of you that, I understand what 
you may think it is, but you better be darn well clear that the 
patient's safety comes first. And I think that's where you're 
headed. I respect that. But it clearly was not where we were in 
the past.
    Ms. Pfohl. Yes, absolutely. We will absolutely look at that 
verbiage. And make no mistake, we work for athletes. That's who 
we work for.
    Mr. Walden. Thank you.
    With that, Mr. Chairman, I'll yield back.
    Mr. Harper. The gentleman yields back.
    The Chair will now recognize the gentlewoman from Florida, 
Ms. Castor, for 5 minutes.
    Ms. Castor. Thank you, Chairman Harper.
    I want to focus on whether the culture of winning above all 
else increases the risk of athlete abuse. But first let me say, 
it is horrendous that it has taken a scandal of such epic 
proportions where hundreds of girls in U.S. Gymnastics were 
abused by a doctor to get to this point.
    Ms. Lyons, according to The Washington Post, a U.S. Olympic 
Committee attorney was deposed in 2016. When asked about the 
Olympic Committee's priorities, he stated, ``The USOC has a lot 
of priorities. Chief among them is sending athletes to the 
Olympic, Pan American, and Paralympic Games, and doing well at 
those games.''
    When asked whether protecting athletes was also a priority, 
this lawyer reportedly said, ``The USOC doesn't have 
athletes,'' implying that the Olympic Committee is not 
responsible for athlete welfare.
    You're familiar with these remarks, correct?
    Ms. Lyons. I am familiar with them.
    Ms. Castor. So I firmly believe, as many do, that the 
Olympic Committee has a responsibility to protect the health 
and welfare of athletes.
    In February you released a statement outlining seven steps 
you intend to take to ensure a safe sports environment, 
including an effort to, quote, ``implement a culture change at 
USA Gymnastics.''
    What do you mean by this culture change? You have given us 
some specifics, but tell us really what you see, what does the 
future hold.
    Ms. Lyons. Well, first I would like to say that, you know, 
in terms of performance, we believe that performance and safety 
go hand-in-hand. We don't believe that athletes can perform at 
their best unless they are in a safe, respectful, and 
supportive training environment and competitive environment.
    In terms of what we need to change in the culture--and I 
think it is across the entire movement, not just within 
gymnastics, and Ms. Perry is doing a lot of work within her own 
organization--we have to, first of all, put that safety much 
more front and center.
    Ms. Castor. Because it seems like in the past it has been a 
culture of protect the coach and not protect the athlete. For 
example, why hasn't it been the policy and will it be the 
policy of actually referring these cases and complaints to 
local law enforcement when they happen?
    Ms. Lyons. Well, it is now the law that those types of 
cases must be remanded to local law enforcement, and anyone who 
does not do so is violating Federal law. It is critically 
important that----
    Ms. Castor. How have you communicated that to all of the 
organizations?
    Ms. Lyons. All of the organizations have received that. 
They have all made the changes within their own bylaws and 
other materials. They now are all required to be under the 
jurisdiction of the Center and also to report to law 
enforcement.
    Ms. Castor. Ms. Pfohl, this culture change is a key part of 
SafeSport's mission. You outlined specific steps that SafeSport 
is taking to make this happen. It is clearly needed.
    Much of what we're hearing today sounds good, but I'm 
worried that we do not have a way to know whether things will 
actually get better.
    One of the concerns is whether or not SafeSport is actually 
independent. What can you tell us to assure us that you're 
acting independently and moving away from the culture of 
protect the coach, protect the organization, to a protect the 
athlete.
    Ms. Pfohl. Thank you for the question, Representative.
    We have an independent, nine-person board of directors that 
need meet a high standard of independence. They have subject 
matter expertise. They come from an ethics compliance world, 
some of them, and the like. So they hold us to a high standard.
    I can tell you that our investigators are the same. When we 
take on a case in a report we do that in an independent, 
confidential, and professional manner, and we act accordingly.
    Ms. Castor. So one of the issues in the workplace, but I'm 
sure it applies here, is retaliation, that you'll have an 
athlete that will come forward with a complaint but the 
organization or the coach then may hear about it some way or 
there might be rumors and then they don't get to compete.
    What is being done to address retaliation and make sure 
that the athletes are protected from it?
    Ms. Pfohl. Again, thank you for the question.
    Retaliation is a violation of the SafeSport code and is 
subject to sanction. And the new law, the Protecting Young 
Victims and Safe Sport Authorization Act, puts some teeth into 
that and provides further protections for those coming forward, 
both reporting parties or the victims themselves, the 
survivors, as well as witnesses.
    Ms. Castor. And then what do you say about referrals to 
local law enforcement? What are you saying when a parent or an 
athlete comes forward with a very serious complaint? Are you 
referring those to local law enforcement immediately?
    Ms. Pfohl. Absolutely. We are mandatory reporters, so we 
immediately call law enforcement if they haven't already been 
called. We are double checking to make sure that they are 
called.
    And of course, we let the law enforcement process play out. 
We work collaboratively at all levels, if you will, with law 
enforcement, from the FBI to local law enforcement. And then we 
look at whether a breach of the SafeSport code took place.
    Ms. Castor. Thank you very much.
    You all set the standard for youth sports and development 
across the country, and we have high expectations for you to 
implement this culture change. And we're going to get back to 
you and keep an eye, as well.
    And I yield back. Thank you.
    Mr. Harper. The gentlewoman yields back.
    The Chair will now recognize the gentleman from Texas, the 
chairman emeritus, Mr. Barton, 5 minutes.
    Mr. Barton. Thank you, Mr. Chairman.
    I want to thank each of you for participating voluntarily 
in this hearing. We have lots of hearings, but not many are as 
sensitive and important as this one.
    Normally I just ask questions extemporaneously, but because 
of the gravity of the situation I'm actually going to basically 
read from some prepared questions because it is so important. 
And I'm going to basically ask the same question toe three of 
you.
    The first question is to Susanne Lyons. The committee has 
asked all 48 NGBs to provide, and I quote, ``detailed data to 
demonstrate the number of reports, complaints, or allegations 
of sexual abuse made to the NGB and the handling of that 
information,'' end quote.
    Almost every NGB has responded in some fashion that they 
have not always tracked such information, the report, 
complaint, or allegations.
    Ms. Lyons, does it concern you that the NGBs apparently 
have not always tracked such information about complaints of 
sexual abuse?
    Ms. Lyons. Yes, that's a concern. And I will point out that 
there was no rule and is no rule at the moment that they have 
to report it to us, as well. They do have to report it to the 
Center, and we are now getting reports from the Center.
    Mr. Barton. Why does not or did not the USOC require such 
information, each NGB to track and monitor this type of 
information?
    Ms. Lyons. I think the way we operated with the NGBs in the 
past was different. There was much more autonomy, and we did 
not exercise the authority that I think the act gives us. I 
think that's one of the reasons we're putting together a 
governance review that I am sure will result in us having a 
much better feedback loop and us following up on those things.
    Mr. Barton. Are you now requiring that such information be 
tracked?
    Ms. Lyons. We will be. We are not yet, but we will be.
    Mr. Barton. When is your timetable to do that?
    Ms. Lyons. Our governance review is in the process of 
getting rolling, and I am absolutely certain that's one of the 
very first things that will occur.
    Mr. Barton. Next question is to Kerry Perry--which, by the 
way, that's a nice name, Kerry Perry.
    I understand that you are still trying to compile data so 
you can provide the committee with the aggregate number of 
reports, complaints, or allegations made to USA Gymnastics.
    Can you please explain why it is taking so long to provide 
the committee with the aggregate number of complaints that USA 
Gymnastics has received regarding sexual misconduct?
    Ms. Perry. Yes, sir.
    So since I started in December one of the first things I 
looked at--and to your point, it is very concerning--what type 
of reports have been made, looking at a history. And, 
unfortunately, what I have discovered was that there wasn't a 
lot of great data.
    I can't answer to that. But what I can tell you is, since 
the last several months, we have embarked on a journey to 
really find a really good database for tracking and really 
keeping internally records of everything that is either 
investigated by the Center, sent to the Center, or going 
through the process at USA Gymnastics.
    What I can tell you is that, as of January of this year 
through April, USA Gymnastics had approximately 275 cases. Of 
that 275, about 78 went to the Center for sexual abuse.
    I can also tell you that we have recently signed a contract 
with a vendor, in fact, the same that the Center is using, 
because for me it was needed information, and I wanted to make 
sure that we took care of that immediately.
    Mr. Barton. When do you think your new system is going to 
be fully implemented?
    Ms. Perry. We are in the implementation phase right now, 
and so we believe in the next 2 months. But in the meantime we 
are tracking all of the allegations that are coming through in 
a database that has been created internally.
    Mr. Barton. My last question is for Mr. McNally.
    In your response letter your organization has admitted it 
has failed to fully comply with track information about 
allegations of sexual abuse, including oral reports. What type 
of complaints, if any, did Taekwondo track?
    Mr. McNally. So the reports that I found are the ones that 
generally went through the hearing process. There's very little 
information of anything that didn't proceed to that stage.
    Mr. Barton. So what's Taekwondo's effort right now to 
compile this information, to track it, and to follow up on it?
    Mr. McNally. So since I took over we're keeping our own 
internal database. But we also were proactively reached out to 
the USOC to see if they were interested in working with us to 
develop a more centralized case tracking. We spoke to that 
chief information officer, and one of their analysts is working 
on----
    Mr. Barton. So it is an active item?
    Mr. McNally. Yes, very much so, yes. We really need more 
historical information, but we also need to make sure that 
nothing ever slips through the cracks again.
    Mr. Barton. Thank you for your discretion, Mr. Chairman. I 
yield back.
    Mr. Harper. The Chair will now recognize the ranking member 
of the full committee, Mr. Pallone, for 5 minutes.
    Mr. Pallone. Thank you, Mr. Chairman.
    All my questions are of Ms. Pfohl, and I'm going to try to 
get through them quickly, if I can.
    I understand that since 2017 the U.S. Center for SafeSport 
has been responsible for investigating all complaints involving 
sexual misconduct. So, Ms. Pfohl, I'm glad that you're here 
today so we can learn exactly how SafeSport operates.
    My first question is, if you would briefly walk me through 
what happens when SafeSport receives a complaint from an 
athlete. I know this probably varies based on the type of 
complaint. But generally speaking, what takes place?
    Ms. Pfohl. Thank you for the question, Representative 
Pallone.
    So when a call or if a report comes in through our Web 
site, however it comes in, it can be an email, it can be 
anonymously, it could be a third party, we are immediately 
triaging those reports. Obviously what we look for is, do we 
need to call law enforcement? So is sexual abuse of a minor 
part of that report? We immediately call law enforcement if 
that's the case.
    At the same time we are also looking at, is someone in 
harm's way? And if we feel like that's the case, then we will 
immediately impose an interim measure or an interim suspension.
    From there, the investigation continues with a qualified 
investigator that is versed in trauma-informed investigations. 
And we are of course talking to the reporting party as well as 
the responding party or the alleged individual for which the 
report is on.
    From there, again, collecting information from them, 
collecting information from witnesses. Sometimes there are a 
lot of witnesses. Sometimes not. So that impacts the length of 
the investigation.
    Mr. Pallone. How long does it take for you to complete an 
investigation typically?
    Ms. Pfohl. It depends. It depends on all of those factors. 
How many investigations? Are there more than one reporting 
party? How far back does it go? All of those things weigh in.
    We're averaging 63 days right now from start to finishing, 
average. Some are much longer, some are shorter.
    Mr. Pallone. Now, who has the final say on how case is 
resolved?
    Ms. Pfohl. We have a director or of investigations and 
decisions, that once our investigators do their work--and by 
the way, we deal in facts, so we have a fair process whereby 
the facts are gathered. Those facts go in the form of a report 
to the director of investigations. He is determining whether a 
breach of the SafeSport code took place.
    If a breach took place, then a sanction is administered. 
And that sanction could be anything from a warning to a 
permanent ineligibility. And there are options for hearings and 
arbitration both at the interim measure as well as the 
sanctioning stage.
    Mr. Pallone. I don't know if I'm going to get through all 
this, but you mentioned referral to law enforcement. For 
example, Mr. McNally's written testimony describes challenges 
that U.S. Taekwondo faced when it reported cases to law 
enforcement, such as being told that law enforcement does not 
even want a target to know that he or she is being 
investigated.
    So let me ask you, what steps can SafeSport take to protect 
athletes while law enforcement is investigating a case? And 
does SafeSport take steps to keep athletes informed of the 
status of an investigation when law enforcement is involved?
    Ms. Pfohl. Thank you. That's an important question.
    Absolutely. So we would work with law enforcement. And it 
is true, depending on the case, the law enforcement agent or 
agency may want us to not work on the investigation formally.
    However, we have the obligation to protect athletes, so we 
would work with them, let them know that, look, we need to put 
in an interim measure so that athletes are protected. And 
athlete safety comes first.
    Mr. Pallone. All right. Let me just skip over, because I 
wanted to ask one more thing, and probably all I have time for.
    I understand the type of complaints that SafeSport manages 
requires a complete investigative process, but the concern is 
that some people might not understand how this process works 
and that this lack of understanding may keep some individuals 
from coming forward.
    So what steps has SafeSport taken to explain to athletes 
how this process works? And do you believe that all the sports 
governing bodies and athletes have a complete understanding of 
your authority and how your investigative process works so that 
they would actually not hesitate to come forward?
    Ms. Pfohl. Right. I think we're still in the stage of 
getting the word out and building trust among really the 13 
million individuals that are part of the Olympic and Paralympic 
movements, absolutely.
    But we're doing that through our prevention work as well, 
the online training, our education. I'll say the USOC has 
helped us with a couple of PSAs that are now being shown on 
national television and at events.
    So we're looking to continue these sorts of partnerships 
with all of the national governing bodies and the USOC because 
they have direct access to all of their members. So we're 
working on information that's on their Web site. We have got to 
make that consistent across all of the NGBs. And that's being 
worked out right now.
    Mr. Pallone. Thank you.
    Thank you, Mr. Chairman.
    Mr. Harper. The gentleman yields back.
    The Chair would like to welcome to the dais Congressman 
Doug Lamborn, who is from Colorado Springs, Colorado.
    Glad to have you.
    And the Chair will recognize the vice chairman----
    Ms. DeGette. His district includes the U.S. Olympic 
Committee.
    Mr. Harper. In Colorado Springs, absolutely.
    And so the Chair will recognize the vice chairman of the 
subcommittee, Mr. Griffith, for 5 minutes.
    Mr. Griffith. Thank you very much, Mr. Chairman.
    Ms. Lyons, if you'll turn to Tab 7, you will see the 
recommendations from the United States Olympic Committee's 2010 
Working Group for Safe Training Environments.
    What specific events led to the creation of the working 
group in 2010?
    Ms. Lyons. The working group really was created in the 
aftermath of many of the swimming allegations that came out in 
2010. And while that NGB began to work on their own issues, we 
developed a working group to look more broadly across the whole 
system.
    Mr. Griffith. Thank you.
    And in response to the 2010 working group's 
recommendations, the USOC launched SafeSport in 2012. Then in 
2013 the USOC established a SafeSport Working Group, and the 
2013 working group recommended that case management for sexual 
misconduct cases should be consolidated under a new independent 
entity with an independent board of directors.
    As you will see in Tab 8, the USOC approved the creation of 
the U.S. Center for SafeSport in 2014. The Center, however, was 
not launched until March 3, 2017.
    Tell me why it took 7 years since the working group was 
created and nearly 3 years from the USOC approving the U.S. 
Center for SafeSport until that Center was launched.
    Ms. Lyons. First, let me say it did take too long. There 
are some reasons why it took a while, funding being one, 
insurance issues being another, very complicated, and trying to 
get all of the national governing bodies to do the earlier 
steps that preceded the Center, which was to put in some 
mandatory requirements and to get them in compliance.
    But, frankly, it took too long, and we regret that it did 
not open sooner. It may have saved some of the tragedy that 
occurred.
    Mr. Griffith. Given that it took so long to get the Center 
started, did the USOC handle any cases of sexual misconduct for 
the national governing bodies or assist those NGBs prior to the 
Center's launch in March of 2017?
    Ms. Lyons. There is a sort of an escalation process, and at 
times if an issue could not be resolved within a national 
governing body it can then come be escalated up to the USOC. 
And there were a number of cases that we would become involved 
in during that time, as well. It is far superior for it to go 
to an independent body as it does today.
    Mr. Griffith. All right. So let me ask you this. Would 
those cases, if something happened and somebody was banned or 
there was disciplinary action, show up on the Center's Web site 
where you can go check to see if somebody has been disciplined?
    Ms. Lyons. I think that our banned lists are very 
incomplete today. And I'm very glad you brought it up, because 
it is one of the first things we need to do. We have to have 
consistency against the NGBs collecting that information. To 
the extent that we have cases, we have to collect it. It all 
needs to be ultimately put together in one database where 
everyone will have transparency to it. That does not exist 
today.
    Mr. Griffith. All right.
    Keeping with that, Mr. Hinchey, the work that you all did, 
you all actually started in 2010 and worked with SafeSport 
before the Center was opened up. Are your cases in a database 
where people can go search? If so, they can see who has been 
banned? Or have you given that information to the Center and 
you can search it there?
    Mr. Hinchey. We have a banned list that is published on our 
Web site.
    Mr. Griffith. OK. I appreciate that.
    Back to you, Ms. Lyons. I just wanted to get that one in. 
Is the U.S. Center for SafeSport now functional as a completely 
independent entity or does the U.S. Center for SafeSport rely 
on the USOC and/or the NGBs for any investigational purposes?
    Ms. Lyons. The Center is not relying on us for 
investigational purposes. We are assisting with the funding, as 
you know, but they are indeed an independent body.
    Mr. Griffith. So your role at this point is just funding?
    Ms. Lyons. Funding, and also help and advise on broader 
issues. They are in their growth stage, just as when we started 
USADA----
    Mr. Griffith. But not investigative?
    Ms. Lyons. Not investigating. We have no role in that.
    Mr. Griffith. Mr. Hinchey, I'm going to shift to you. You 
indicated in your oral statement that 90-plus individuals have 
been banned from USA Swimming for sexual misconduct-related 
violations since the inception of your SafeSport program in the 
fall of 2010. Is that accurate? Did I understand that 
correctly?
    Mr. Hinchey. Yes, that's correct.
    Mr. Griffith. All right. And how have USA Swimming's 
policies and procedures changed regarding how you handle sexual 
misconduct claims since the U.S. Center for SafeSport was 
launched in 2017?
    Mr. Hinchey. Over the course of that transition, which 
started July 1 of last year, there have been 75 complaints that 
have gone straight to the U.S. Center for SafeSport from our 
governing body. But they now handle the adjudication, they 
handle the initial complaints, but we're here to support it in 
any way we can.
    Mr. Griffith. All right. You have heard concerns from Ms. 
Lyons in how long it took since you all were involved at USA 
Swimming in the creation of the U.S. Center for SafeSport and 
started your own program in 2010. Were you all concerned about 
the amount of time it took to launch the U.S. Center for 
SafeSport?
    Mr. Hinchey. Clearly it should have been started earlier. 
Having said that, we also take responsibility for our own 
problems. And, you know, regardless of whatever time it took it 
to get the independent group going, which we do think is great 
and we want to support it, these are still our problems, and we 
need to step up and take responsibility.
    Mr. Griffith. I appreciate that. Both you and I are 
swimmers and we love the sport, and there's a lot of positives 
we're not going over today. And I wish I could tell countless 
stories of people who have benefited from these programs, but 
we have got to take care of the problems, too.
    With that, Mr. Chairman, I yield back.
    Mr. Harper. The gentleman yields back.
    The Chair will now recognize Mr. Tonko for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair.
    And thank you to our witnesses for joining us today.
    Routine audits are essential to promote athlete safety and 
to ensure that athlete safety policies are implemented 
correctly.
    Last year the Olympic Committee retained consulting firm 
Baker Tilly to conduct an audit of the U.S. Olympic Committee 
and all national governing bodies to assess their 
implementation of the new SafeSport requirements. Rick Adams, 
the committee's chief of Paralympic sports and national 
governing body organizational development, told the Senate 
judiciary committee last year that they were unique one-time 
audits.
    Ms. Lyons, the October 2017 audit recommended that the 
Olympic Committee address 10 areas in need of improvement. I 
believe they're referenced in exhibit 2. Very briefly, what did 
you learn from having those audits conducted and implementing 
these recommendations? Was it a useful process?
    Ms. Lyons. Yes, it's a very useful process, and I think 
audits will be a bigger part of what we do going forward.
    What we learned--and part of this was as we were putting in 
new processes and procedures--is that it is--all NGBs are 
different. Some have better capabilities to very quickly adopt 
change, others require more help.
    I am glad to say that all of the NGBs that had deficiencies 
through that audit process have now come up to standard. And we 
will be repeating that audit process on a rotating basis to 
ensure that we continue compliance.
    Mr. Tonko. OK. And as part of this audit work they found 
that two of our witnesses today, USA Volleyball and USA 
Taekwondo, had areas where they needed to enhance the design of 
their systems and make recommendations on how they could do so. 
So the value of these audits is clear.
    Going forward, I believe it is important to regularly 
assess SafeSport policies and their implementation to ensure 
that they are effective in their protecting of the athletes.
    So I want to ask you, Ms. Pfohl, if her organization plans 
to undertake regular performance audits to ensure it is meeting 
the needs of the massive sporting organizing it is now charged 
with protecting.
    Ms. Pfohl. Thank you for the question.
    The new legislation, the Protecting Young Victims and Safe 
Sport Authorization Act, calls on the Center to perform regular 
and random audits of the NGBs. And so, yes, we intend to do 
that, resources permitting.
    Mr. Tonko. And, Ms. Pfohl, again, what is the Center for 
SafeSport doing to assess how effective SafeSport policies are 
in reducing the likelihood of abuse?
    Ms. Pfohl. Thank you for that question, as well.
    We actually have now an outside consultant, a firm coming 
in actually to go through the cases that we have already closed 
to determine if there's something that we missed, is there 
something that we could have done better.
    So already in our--just over our first year we're already 
doing a look back and saying, ``OK, how did we do?''
    So we'll continue to do that. We'll continue to look at 
policies. We are always looking for best practices, and when we 
see best practices and new policies that need to be put into 
place we will do so.
    Mr. Tonko. And do you plan to have regular performance 
audits of SafeSport's performance?
    Ms. Pfohl. Absolutely.
    Mr. Tonko. OK. And do you believe that you have sufficient 
resources to periodically audit how well the SafeSport system 
is performing?
    Ms. Pfohl. I would say that our resources are limited in 
that area in terms of self-audits, if you will. But our goal, 
and I know it is a high priority for our board, we will find 
the resources to be able to do it.
    Mr. Tonko. Thank you.
    And finally, do you plan to have regular audits done of the 
sports governing bodies to ensure that they are implementing 
their SafeSport policies going forward?
    Ms. Pfohl. Yes, sir. As I mentioned, that is called for in 
the Safe Sport Authorization Act.
    Mr. Tonko. And then to any of the panel, beyond audits, 
what can be done to protect the athlete?
    Mr. Hinchey. I think from my perspective, Congressman, that 
we need to empower the athletes. We need to hear their voices. 
We need to get them involved in the process. And that's 
something we hadn't done at the start of our process, but 
something we've learned over the last 8 years, and we intend to 
do that coming forward.
    Mr. Tonko. Mr. Hinchey, that's a good point, and thank you. 
And how would we do that? What's the structure by which to 
empower their voices?
    Mr. Hinchey. We need to invite them to be part of the 
process. And right now, as an example, for us, we started a 
working group that's a combination of some athletes, Olympic 
athletes, local coaches, board members, six women and five men, 
to start to really vet where we have been and where we need to 
go.
    Mr. Tonko. Does anyone else want to add to that statement?
    Ms. Lyons. I would like to add that I think we're focusing 
a lot on the aftermath of abuse. I think one of the most 
important things we can do is education that prevents abuse.
    And much of the Centers' charge going forward is that 
education, which goes beyond the NGBs and their members. It 
goes down to every gym and every dojo in America where a 6-
year-old is training.
    We need to enlist the Boys and Girls Clubs and all the 
other organizations and get parents educated so that people 
know earlier how to spot these signs of grooming and signs that 
may lead to abuse so that we can stop these cases before they 
occur.
    Mr. Tonko. Thank you so much.
    And with that, Mr. Chair, I yield back.
    Mr. Harper. The gentleman yields back.
    The Chair will now recognize Dr. Burgess for 5 minutes.
    Mr. Burgess. Thank you, Mr. Chairman. And, Mr. Chairman, 
let me just say I have been on this subcommittee for a long 
time, along with a couple of other members, and this has been 
one of the most difficult hearings to research and prepare for. 
And I appreciate so much everyone participating today, because 
it's so important that we get it right.
    Mr. Griffith referenced the positive aspects that, 
unfortunately, we're not really able to spotlight today because 
of the nature of the hearing. I have a university in my 
district, Texas Woman's University, my staff handed me a 
newspaper article from last month, April 16: Texas Woman's 
University secured the program's 11th USA Gymnastics Collegiate 
national title on Saturday and registered the highest score 
ever seen in the championship.
    Clearly, you all are in this for the athletes, and that's 
for the right reason, because the benefits returned from these 
programs are significant for the athletes themselves, their 
families, clearly their colleges, their universities, and the 
communities where they reside. So I don't want to lose sight of 
that fact even though what we're looking into is just 
astonishing in how difficult it is.
    So as someone with a medical background one of the things 
that has just been very difficult for me is how a medical 
professional has caused all of this damage. And this individual 
was licensed in the State of Michigan, but not in the State of 
Texas. And under our current laws, States are responsible for 
licensing the people who provide medical care within their 
borders.
    So, Ms. Lyons and Ms. Perry, I guess my question is to you. 
And I'll ask you, Ms. Pfohl, the same thing.
    This individual, not licensed in Texas, was providing 
services, care, whatever he did, at the Karolyi Ranch in Texas, 
not licensed by the State of Texas. So how do you go about 
ensuring that physicians that are taking care of your athletes 
are compliant with licensing obligations?
    And, Ms. Lyons, I guess we'll start with you and then we'll 
go to Ms. Perry.
    Ms. Lyons. Well, I think that's one reason we want to 
embark upon our-- why we have our independent investigation 
from Ropes & Gray underway, to find out actually how some of 
these gaps in the systems occurred.
    There are supposed to be background checks. There's 
supposed to be medical certification checks. I may have to 
defer to my colleague. The national governing bodies are 
responsible for the licensing of their own physicians, but 
those checks are meant to happen. And I think the investigation 
will help us understand if they did or did not and why.
    Mr. Burgess. And we see what a serious breach this was when 
this didn't happen in this case.
    And, Ms. Perry, I guess that when an individual signs on to 
a training program at a ranch like this, I mean, presumably 
there's some type of consent that is entered into. Is that not 
correct?
    Ms. Perry. First, I want to say it is horrific. And, you 
know, every day that I wake up I think about how do we make 
sure as an entity that we are doing everything we can to 
protect our athletes. That's why I took this position in 
December.
    And so one of the things that we are looking at, as Ms. 
Lyons talked about, was finding out the facts that could have 
led up to such a horrible situation.
    And so having the Ropes & Gray independent investigation is 
very important to us, and it is very important to me, to learn, 
so that we can make sure that we go down the right path.
    One of the things that I looked at immediately was that I 
did not want our athletes to ever return to a place where they 
had abuse. So as you all know, we closed the ranch.
    Mr. Burgess. Thank you.
    Ms. Perry. That was very important.
    But on a go-forward, I think it really does make a big 
difference that as a national governing body we look at 
everything--we look at our structure, we look at our policies, 
we look at our systems, we look at our medical--and we hold 
ourselves to the highest standard. Because, ultimately, we 
represent and we advocate our athletes, and I am committed to 
that every day.
    Mr. Burgess. So, I mean, just to point out the obvious 
here, though, you had an unlicensed physician taking care of 
people. I don't know if the parents of these children were 
apprised of the fact: Here's a physician who is not licensed in 
the State of Texas who is going to be participating in the 
training program. It is wrong on so many levels, and, 
unfortunately, now we see the consequences of that.
    And I guess I just have to ask, I mean, who paid for this 
doctor? Was it something the parents had to pay for? Did the 
ranch pay for it? Who was responsible for paying for this?
    Ms. Perry. From my understanding, he was a volunteer, but 
he was paid expenses. I believe everybody knows he was an 
employee of Michigan State, but he was a volunteer for USA 
Gymnastics.
    Mr. Burgess. OK. All right.
    Well, Mr. Chairman, I have got so many more questions, and 
I will submit them for the record.
    Mr. Davis, I really thank you for your testimony today. It 
underscores the point of how important it is that we get this 
right. We can think we have got it right, and then it turns out 
we didn't get it right, and then years later you have to 
continue to deal with the problems from not getting it right. 
It is important that we be right on this.
    Thank you, Mr. Chairman. I'll yield back.
    Mr. Davis. Thank you, sir.
    Mr. Harper. The gentleman yields back.
    The Chair will now recognize the gentlewoman from Illinois, 
Ms. Schakowsky, for 5 minutes.
    Ms. Schakowsky. Thank you.
    I just want to begin with a statement about your testimony, 
Mr. Davis. I'm from the Chicago area. And I think it is just 
shocking that Rick Butler, after being banned for abusing 
underage girls, appealed that lifetime ban and was reinstated. 
It is just incredible. And that it wasn't until January of 
2018, this year, that there is a lifetime ban. This really 
underscores the problem that has occurred over so many years.
    Anyone in this room, I think, certainly the women know, if 
someone has abused underage girls, reinstating him is so 
unacceptable. He should have been in jail. And now, in today's, 
world I think he would have. I hope he would have.
    Let me just turn to--I would like to recognize Arlene Limas 
in the audience.
    If you would stand, Arlene, if she is still here.
    Arlene is an Olympic athlete and taekwondo coach, and we 
met about 2 months ago and she shared with me chilling stories 
about sexual abuse at training camps and competitions.
    Mr. McNally, last year three of your athletes were awarded 
$60 million in damages--a total of--after a judge found that a 
coach sexually abused them. You're familiar with that, correct?
    Could you say into the mike?
    Mr. McNally. Yes, I am.
    Ms. Schakowsky. Thank you.
    Taekwondo also allegedly permitted an athlete and a coach 
to participate in the 2016 Olympics even though there were 
unresolved sexual misconduct allegations against them. 
SafeSport finally recommended an interim ban against those 
individuals just this year.
    Are you familiar with this matter, as well?
    Mr. McNally. Yes, I am.
    Ms. Schakowsky. In the case of John Lopez, you mentioned 
multiple investigations and attempts to ban Mr. Lopez in 2013 
and 2015. But my understanding is that these efforts were 
unrelated to sexual abuse. Is that true?
    Mr. McNally. Yes. That's correct.
    Ms. Schakowsky. And the topic of this hearing, by the way, 
is about sexual abuse. And isn't it also true that it wasn't 
until 2018 that Mr. Lopez was sanctioned for sexual misconduct?
    Mr. McNally. Yes. That's correct.
    Ms. Schakowsky. OK. I think that identifies a problem here.
    Your March 21, 2018, letter to this committee indicated 
that there are roughly two dozen individuals facing suspensions 
or lifetime bans from your sport. Were any of these reported to 
law enforcement?
    Mr. McNally. I believe yes. Some of them actually came from 
law enforcement through cases where they were charged. As soon 
as they were charged they were suspended. Some of them went to 
prison and were added through there.
    I don't know about every case historically, but since I 
took over, and even earlier than that, since the incorporation 
of the SafeSport Center, every case has been--with a criminal 
element--has been turned over to law enforcement.
    Ms. Schakowsky. I would like to know how many of the 
roughly two dozen have been referred to law enforcement?
    Mr. McNally. So that's something----
    Ms. Schakowsky. You'll get that to me, right?
    Mr. McNally. Yes, I will.
    Ms. Schakowsky. OK.
    Mr. McKinley, how is it that U.S. Taekwondo addressing--how 
is Taekwondo addressing the assistant coaches and team managers 
that may have had a role in covering up sexual abuse in your 
sport?
    Mr. McNally. Every report that we get, every report that is 
submitted to us, is immediately submitted to the U.S. Center 
for SafeSports.
    Ms. Schakowsky. I'm asking a different question. If there 
are individuals within the sport that are silent, that are 
covering up, that don't tell you. Because I think probably for 
every one of these cases of sexual abuse someone knew about it 
and didn't say anything.
    So what is the process there?
    Mr. McNally. So we are looking to, as Mr. Hinchey said, to 
empower the athletes. We're launching our #notinmysport 
campaign to encourage athletes to come forward. We are much 
more open, I believe, at regaining the trust of the athlete 
community. They know that I will deal with this if it comes to 
me. And I would encourage anybody with one of those stories who 
has been silent up until now----
    Ms. Schakowsky. What about the coach community, too? 
There's assistant coaches, there's all kind of staff.
    Mr. McNally. Anybody who has knowledge of anything, however 
small, however serious, I encourage them to bring it to me.
    Ms. Schakowsky. I'm still asking a different question. What 
if you know that there have been people that have been silent 
that knew of these abuses, is there any sanction at all?
    Mr. McNally. We deal with every report that comes to us. 
That is why in 2015 USA Taekwondo preceded the independent body 
of the SafeSport Center by appointing our----
    Ms. Schakowsky. I guess I'll have to ask the question more 
precisely in writing, because my time is up. But it seems to me 
that whether it's reported or not, that you ought to do 
inquiries to find out who has stood by and watched sexual abuse 
occur.
    And I have to yield back. Thank you.
    Mr. Harper. The gentlewoman yields back.
    The Chair will now recognize the gentlewoman from Indiana, 
Mrs. Brooks, who is also the chair of the Ethics Committee in 
the House.
    Mrs. Brooks.
    Mrs. Brooks. Thank you, Mr. Chairman.
    Ms. Pfohl, I'd like to focus a number of my questions on 
you.
    If you would turn to Tab 9, it talks about the Center 
receiving 488 written and oral reports, complaints, and 
allegations regarding sexual abuse since the Center launched 
until April 13, 2018.
    Now, this is a significant number of cases. I'm also a 
former U.S. Attorney, Federal prosecutor involved in child 
exploitation cases and so forth.
    Given the significant number of cases that your Center has 
received, how is the Center prioritizing cases in any way, if 
you are?
    And I have a number of questions, and so if we could be 
brief, and we may ask for more answers in written form.
    Ms. Pfohl. Thank you, Congresswoman.
    We triage the cases as they come in.Again, if they need to 
go to law enforcement, that happens. We're inputting interim 
measures. If individuals are active, if it involves a minor, 
those are prioritized.
    Mrs. Brooks. And can you please share with us in Tab 9 
that, as we have already heard, the allegations come from 35 of 
the 48 NGBs, and how are you working with the NGBs to make 
sure--and athletes, as we have talked about, the priority in 
athletes--to make sure that they are familiar that SafeSport--
that the Center exists and the policies and procedures? I know 
the NGBs do, but how do we make sure that athletes know you 
exist?
    Ms. Pfohl. Great question. Thank you again.
    By the way, I think we're up to 38 of the sports now, the 
NGBs sports.
    So how we do that----
    Mrs. Brooks. Thirty-eight of the 48 have allegations?
    Ms. Pfohl. Thirty-eight, correct, have at least one report 
that we have received, at least one report.
    So, again, we work with the NGBs. We have now a full-time 
NGB resources manager, and her job, every day, all day, is to 
communicate back and forth with the NGBs to give them 
consistent information.
    To listen to them also, for them to tell us what they need. 
For example, we heard they needed parent toolkits. We have a 
parent toolkit now on our Web site that anyone can access.
    Mrs. Brooks. Are any of the NGBs not cooperating with you?
    Ms. Pfohl. No, ma'am.
    Mrs. Brooks. And I understand NGBs are various sizes and 
have various----
    Ms. Pfohl. Resources, yes.
    Mrs. Brooks. And various resources. But it is fair to say 
that all NGBs today are cooperating with you?
    Ms. Pfohl. To the best of my knowledge, every NGB is 
cooperating.
    Mrs. Brooks. In the 2018 omnibus Congress established a 
grant program to help keep our young athletes safe. Have the 
Attorney General and the Justice Department, to your knowledge, 
set up the grant program yet and established the timing and 
content of the application of that grant?
    Ms. Pfohl. Ma'am, we have not seen the RFP come out, the 
guidance come out yet regarding that grant program, but we look 
forward to it.
    Mrs. Brooks. And it was a $2.5 million grant program, is my 
understanding?
    Ms. Pfohl. Yes. Yes, ma'am.
    Mrs. Brooks. If the Center for SafeSport were to apply for 
this grant, and we will be making inquiries as to what is 
taking time to establish this grant program authorized by 
Congress and passed in the omnibus, how would those grant funds 
be used if Center for SafeSport were to receive those funds?
    Ms. Pfohl. Thank you for the question.
    Absolutely. To expand our response, meaning our response 
and resolution. To be able to add more investigators. Also 
remember, the bill did call for us to do regular and random 
audits of the NGBs, again, so that we can further work and get 
the word out through them to the athletes, directly to 
athletes.
    Mrs. Brooks. Have the audits begun yet?
    Ms. Pfohl. No.
    Mrs. Brooks. And why is that?
    Ms. Pfohl. We don't have the resources to do the audits 
yet.
    Mrs. Brooks. And have you made any requests yet of the USOC 
or of the NGBs for more resources?
    Ms. Pfohl. Not--no, ma'am, not since the doubling of the 
support from the USOC. We are, of course, now looking to 2019 
and looking at the contributions from all of the national 
governing bodies.
    And thanks, Tim, for stepping up and saying you could do 
more.
    Mrs. Brooks. There is no statute of limitations. I want to 
get that out, as well.
    Ms. Pfohl. Correct, correct.
    Mrs. Brooks. You mentioned there are no statute of 
limitations with regard to the reporting.
    Ms. Pfohl. Correct.
    Mrs. Brooks. Or with regard to your investigations.
    Ms. Pfohl. Correct.
    Mrs. Brooks. And there has been some criticism with respect 
to the independence. I would like for you to tell us what is 
the Center doing to ensure athletes can trust the Center's 
independence and reporting of these allegations.
    Ms. Pfohl. Absolutely. So thank you again.
    I don't answer to anyone at the USOC or any of the national 
governing bodies, nor does anyone on my team.
    Mrs. Brooks. Do you expect the funding to always come from 
the USOC?
    Ms. Pfohl. Our goal, ma'am, is to diversify that funding. 
We are looking at foundation funds, and some of that is 
starting to come in now. Certainly if the Federal--if we are 
able to receive some Federal dollars that will help diversify, 
as well.
    I can't imagine a time where the USOC and the NGBs would 
not be investing in this space. I think they should be and will 
continue to be. But I also think that we can diversify that, 
especially in the area of prevention.
    Mrs. Brooks. Thank you.
    And for the record, I'll be submitting a record for all of 
the panelists and commending USA Gymnastics for beginning the 
Athlete Task Force and will be asking--my time is up--as to 
whether or not each of the NGBs are creating an Athlete Task 
Force, which will shape your organization's future in their 
decisions and their operating decisions.
    With that, I yield back.
    Mr. Harper. The gentlewoman yields back.
    The Chair will now recognize Ms. Clarke for 5 minutes.
    Ms. Clarke. I thank you, Chairman Harper and Ranking Member 
DeGette, for holding this hearing today on this important topic 
of how we must protect our Nation's most elite club of 
athletes.
    Being an Olympian is a coveted title not easily given, and 
is not limited by age, with the youngest at only 13 years old. 
This protected class of youth, who display exceptional ability, 
should not have to worry if they will be violated by a trusted 
coach or any adult in the room.
    Given what we have learned through the sentencing of Dr. 
Larry Nassar, it is Congress' responsibility and obligation to 
ensure that strong and appropriate measures are put in place so 
that trusted personnel are held accountable to the highest 
standard of conduct.
    Having said that, Ms. Lyons, earlier this year the U.S. 
Olympic Committee threatened USA Gymnastics with 
decertification. The U.S. Olympic Committee demanded that all 
members of the USA Gymnastics board resign, which they did. Is 
that correct?
    Ms. Lyons. That's correct.
    Ms. Clarke. So the U.S. Olympic Committee can use its 
authority to require sports governing bodies to adopt certain 
standards. It can demand changes, as it did with USA 
Gymnastics.
    Documents provided to the committee show that sports 
governing bodies have different policies on key safety issues. 
For example, some sports' governing bodies make lists of banned 
coaches and other members make it publicly available, others do 
not.
    Ms. Lyons, why do some governing bodies post public lists 
while others do not?
    Ms. Lyons. I think that consistency is an incredibly 
important part of what we need to achieve going forward.
    To date, as you mentioned, they're very different. Keeping 
banned lists is a complicated issue.
    At the same time, we need to figure it out and we need to 
ensure that centralized information is provided by every single 
NGB and that it's accessible to the public.
    It has not happened to date, and I regret that we did not 
exercise more of our authority to enforce that as a standard 
for the NGBs prior to this.
    Ms. Clarke. So will you be doing that? Is that something 
that you will enforce?
    Ms. Lyons. That has been added to my to-do list this very 
week.
    Ms. Clarke. Absolutely.
    Ms. Lyons, your May 16, 2018, letter to us states that the 
U.S. Olympic Committee recognizes the need for greater 
transparency and uniformity with respect to sexual assault.
    Shouldn't there be uniformity regarding public lists? You 
stated that that's on your to-do list. And in this area, where 
the Olympic Committee could demand that governing bodies make 
these changes, what is your timetable?
    Ms. Lyons. We do need to confer with all of our NGB 
partners because, as you know, they are very different in size 
and they are very different in their technological 
capabilities. I'm guessing that we may need to help provide a 
technology tool that can be used by those that don't have their 
own tool.
    So I couldn't yet speculate on the timeframe, but we will 
put that on an urgent path because I can't see how that's not 
an important part of our----
    Ms. Clarke. Yes. And where there's need for support, I 
think, you know, this is a valuable use of resource. It's 
important that we standardize this.
    And I understand that sports governing bodies are now 
required to report all new cases to the Center for SafeSport. 
But nationally, governing bodies are not required to submit 
pre-March 2017 cases to the Center for SafeSport.
    A recent headline in USA Today on March 16, 2018, 
reads:``USA Gymnastics makes puzzling decision to keep sexual 
abuse case.''
    Ms. Lyons, how do we know that cases predating SafeSport's 
opening are being addressed appropriately?
    Ms. Lyons. The Center has the option to take some of the 
preexisting cases if it chooses. There is a sensitivity that if 
a victim has already been through a good part of the 
investigatory process, that perhaps it may not be beneficial to 
them to go through it again. So in some of those cases, the 
NGBs have opted to keep a case that's already in progress. But 
the Center can choose to take that if it wishes to.
    Ms. Clarke. Who is examining that to make sure that there's 
transparency and that there's a coherence to a standard and 
that there's no short shrifting in terms of determining what 
rises to the occasion of a crime and what doesn't?
    Ms. Lyons. I would have to say when I read the article I 
had the same question. And I'm not certain of the answer. But I 
will be looking into that. But clearly, we should make sure 
that the Center is aware of all these cases and has the option 
to take them if they feel it's appropriate. I'm not sure that 
it is currently the standard.
    Ms. Clarke. Well, I hope you will give scrutiny to that.
    And I yield back, Mr. Chairman. Thank you.
    Mr. Harper. The gentlewoman yields back.
    The Chair will now recognize the gentleman from Michigan, 
Mr. Walberg, for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman.
    And thanks to the panel for being here today.
    Coming from Michigan, this issue hits especially close to 
home, sadly. What happened at USAG and MSU under Larry Nassar 
is terrible, unacceptable, unexplainable.
    Thankfully, hundreds of brave young women came forward to 
tell their stories, helped put the predatory, Dr.Nassar--I 
guess I would change that--put the predator, Nassar, behind 
bars and close the chapter on just one of many incidents that 
we have heard about.
    As an aside, Ms. Pfohl, thank you for stating the U.S. 
Center for SafeSport's mission statement and restating it as 
well. It is good to hear.
    The mission statement for the U.S. Olympic Committee states 
it this way: Its mission is to support U.S. Olympic and 
Paralympic competitive excellence while demonstrating the 
values of the Olympic movement, thereby inspiring all 
Americans.
    Ms. Lyons, did this incident even remotely follow the 
mission of the USOC?
    Ms. Lyons. First, I would say that I think the athletes do 
continue to inspire all Americans. And I think, sadly, the 
institutions that support those athletes have not inspired 
confidence, trust, or have lived up to our mission and values, 
and we deeply regret that that has occurred.
    And that is one reason why we are embarking upon all of the 
action plans that we've discussed, because the athletes deserve 
to have everyone believe that the work that they do and what 
the Olympics stands for should be held in highest esteem, and 
we have let them down.
    Mr. Walberg. I appreciate you stating that, knowing you 
weren't there in this position at the time all of this went 
down. But I think it is important that the commitment to that 
mission statement is affirmed and affirmed and affirmed still 
further.
    And so, Ms. Perry, I would also ask similarly, did what 
happened in Michigan with the predator, Mr. Nassar, and USA 
Gymnastics even remotely resemble the mission statement I just 
read?
    Ms. Perry. I was there at the hearings. And I want to say, 
first, that every moment that I think about what our athletes 
went through it energizes me and gives me a sense of resolve 
every single day to make sure that we're focusing every part of 
our organization on athlete safety.
    And as an organization, one of the first things that I did 
in December was to look at the mission statement of USA 
Gymnastics, and we changed that mission statement. And our 
mission statement now focuses on empowering our athletes and 
focusing on athlete safety and making sure that we educate our 
members to that extent.
    And I will tell you that it's something every single day I 
think about. And so we want to do whatever we have to do as an 
organization to make sure that we prevent. As you all 
mentioned, one case of sexual abuse is one too many.
    Mr. Walberg. I appreciate that. Then let's continue to look 
back a bit.
    Public reports indicate that USAG officials knew about 
Nassar in the summer of 2015, and USAG officials notified USOC 
officials shortly thereafter, in July 2015.
    In addition to notifying the FBI, did USAG implement any 
formal and public interim measures on Dr.Nassar while the FBI 
conducted its investigation to ensure that athletes did not 
continue to be at risk while the investigation was under way?
    Ms. Perry. I don't have firsthand knowledge, but it is my 
understanding that Mr. Nassar was asked to step away.
    There is a really important investigation going on right 
now, as you mentioned, the Ropes & Gray, which I think is 
critically important for all of us so that we can shed light on 
what happened.
    Mr. Walberg. But did he step away?
    Ms. Perry. I would--did he step away at that point?
    Mr. Walberg. At that point.
    Ms. Perry. It is my understanding that he did, but I would 
need to see all the facts around that.
    Mr. Walberg. I encourage you to check those facts out.
    Ms. Perry. Yes.
    Mr. Walberg. Because it appears that there was still 
involvement that went on. And at the very least there was a 
coverup. Things weren't transparent or clear. And I think that 
added to the frustration of athletes and parents, and the 
general public as well.
    So I would encourage you to continue looking for those 
questions----
    Ms. Perry. I understand.
    Mr. Walberg [continuing]. To make sure it never happens 
again.
    Ms. Perry. I understand. And I will be relentless in my 
efforts every day. And I believe that the Ropes & Gray 
investigation is going to really provide a lot of information 
that I think I and many others would like to see.
    Mr. Walberg. Thanks. And I wish you well.
    Ms. Perry. Thank you.
    Mr. Walberg. I yield back.
    Mr. Harper. The gentleman yields back.
    The Chair will now recognize the gentlewoman from 
California, Mrs. Walters, for 5 minutes.
    Mrs. Walters.. Thank you, Mr. Chairman.
    First of all, I would like to start off by saying that as a 
mother of four whose kids played local organized sports growing 
up, this is a difficult hearing topic.
    It is really upsetting to think that my kids and their 
teammates could have been coached by someone who had a history 
of misconduct, and even more disturbing to think that I and the 
rest of the parents would not have known if that was the case 
because, as we've recently learned, in most cases lists 
containing the names of banned or suspended coaches isn't 
public information.
    NGBs have different policies regarding whether they 
maintain a list of banned coaches, and if they do, whether they 
publicize the list.
    The committee asked all 48 NGBs and the USOC whether or not 
they maintained a list of individuals banned or suspended from 
participation with the NGB, and if so, whether the list was 
publicly available.
    Only 18 NGBs have a banned or suspended list that is 
available to the general public. Other NGBs reported to the 
committee that they shared banned or suspended lists with their 
members but do not publicly post those lists, have banned lists 
but only share it with certain officials, maintain a searchable 
database of members in good standing, or have not been banned 
or suspended any individuals but would make a list public if 
they were to do so.
    As you can see, there's a wide variation in whether and how 
the NGBs and USOC make their banned or suspended list publicly 
available. There are clear benefits to having a publicly 
available list.
    Ms. Lyons, why hasn't it the USOC mandated that all NGBs 
maintain a list, and, further, that they make this list 
publicly available?
    Ms. Lyons. We will be working with our NGB partners. I 
think that we will probably all be in agreement that we need to 
find a good way to do this so that that information is 
available, transparent, and all in one centralized place where 
people can find it. It doesn't exist today, but we will make 
that a priority for us all to make that happen.
    Mrs. Walters.. So then you will consider mandating that all 
NGBs publish a public list of all banned or suspended 
individuals?
    Ms. Lyons. Yes, I think there's a number of things that 
will end up getting on the new compliance list that have not 
been there before as we exercise some more authority in this 
area.
    Mrs. Walters.. OK. And this question is for you also.
    If an NGB puts an individual on a banned or suspended list, 
would the USOC grant that person access to an Olympic center or 
event?
    Ms. Lyons. That should not occur. If that information is 
visible to us, then we have processes and procedures that would 
ensure that a person could not get on to an Olympic training 
site or an Olympic training center, that they would not be 
certified to go to games that we were supervising.
    So to your point earlier, the availability of that 
information is critical. I think the right procedures are in 
place to keep them from entering a location, but you have to 
know that they're banned.
    Mrs. Walters.. OK. Because the production that the USOC 
made to the committee last week included an email from 2016 
regarding someone who had been recently suspended by USA 
Taekwondo for 5 years due to serious SafeSport violations.
    According to the email, notwithstanding the suspension, 
this individual was issued a day pass for the High Performance 
Center in Rio by the USOC. It states, and I quote: ``This pass 
was not officially requested by USA Taekwondo and this 
individual is not someone we would grant access to.'' And it 
continues: ``It appears one of our coaches went directly to 
USOC staff with the request without our approval and somehow 
obtained the pass directly.'' And that's an end quote.
    Another coach complained about this person being around 
female athletes. USA Taekwondo's banned or suspended list is 
public. USA Taekwondo banned this individual for 5 years and 
the USOC granted him access to an official center at the Rio 
Olympics.
    How do you explain this?
    Ms. Lyons. It certainly should not have happened. And it 
does point to one of the reasons we're putting together an 
athlete safety commission to look at where these gaps in the 
system are.
    It shouldn't occur. That type of information needs to be 
available so that people in those venues would immediately know 
to check that list. It should have happened in any case. It did 
not.
    Mrs. Walters.. Well, I want to highlight what the email 
also said, because it went on to say: ``Please help me 
understand how this could have happened, as these things have 
happened consistently in the past, so this is not an isolated 
incident. Neither is it something we can just ignore given the 
seriousness of the adjudicated complaints.''
    So my point is that this is something that consistently had 
happened. And how did that possibly consistently happen?
    Ms. Lyons. Clearly, there was not an appropriate policy or 
check in place, a check and balance there was a policy to 
ensure it was being followed. So we have to do better, and we 
have to find out why that happen and make sure it does not 
happen in the future.
    Mrs. Walters.. OK. I'm out of time. I yield back.
    Mr. Griffith [presiding]. I now recognize the gentleman 
from Georgia for 5 minutes, Mr. Carter.
    Mr. Carter. Thank you, Mr. Chairman.
    Ms. Perry, I'll start with you.
    Ms. Perry, I have the honor and privilege of representing 
the First Congressional District of Georgia, which includes 
Effingham County, Georgia, Rincon, Georgia. You ever heard of 
it?
    Ms. Perry. Yes.
    Mr. Carter. You have?
    Ms. Perry. Of Effingham----
    Mr. Carter. Rincon, Georgia. Effingham County, Georgia.
    Ms. Perry. I have.
    Mr. Carter. Yes, I'm sure you have.
    You're aware of a lawsuit, Jane Does v. USA Gymnastics?
    Ms. Perry. I am.
    Mr. Carter. You are. And that lawsuit was settled just last 
month, I believe.
    Ms. Perry. Recently.
    Mr. Carter. Recently. Beginning of April it was. That is 
correct.
    Let me ask you something. Just to give you an idea of what 
happened here, there was a gentleman, a gymnast, who opened up 
a gym in 2002 in Effingham County. He opened up a gym. And in a 
newspaper story, it stated that McCabe--his name is Bill 
McCabe, by the way--he's in prison for 30 years, right?
    Ms. Perry. Yes.
    Mr. Carter. But in 2002 he opened up a gym. A newspaper 
article said, ``McCabe and a new partner/girlfriend opened 
Savannah Metro Gymnastics in Rincon, Georgia. ... Both are USA 
Gymnastics Professional members and USA Gymnastics safety-
certified. Bill is also a USA Gymnastics Skill Evaluator. Bill 
has been teaching since 1991.''
    Of course, what happened is that the mother of an 8-year-
old enrolled her daughter there. And then what happened was 
that for 3 years, until the middle of 2005, that daughter was 
in classes there with this sexual predator, is essentially what 
he was.
    And then what happened was that she went out to her car one 
day and she found an envelope on her car, and it had all these 
details about what previous problems that Bill McCabe had had.
    She took and she called USA Gymnastics. And this is what 
she said: ``I spoke to a woman there, and I told her that I had 
this packet of complaints against Bill McCabe. And I asked 
whether she had any complaints against him. And she said no.'' 
She said no.
    Yet, if you look back on his record, you'll find that in 
October of 1996, he was fired from Gymnastics World in Fort 
Myers, Florida, because he was bragging to a colleague about 
his efforts to coerce a 15-year-old cheerleader to have sex 
with him.
    And then, in July of 1997, he was fired from Five Star 
Gymnastics in Erlanger, Kentucky, following an incident in 
which gymnasts he had taken to a camp in Pennsylvania. Parents 
had also complained that McCabe exposed his genitals to some 
gymnasts.
    And then it goes on and on to tell about all these things 
before 2002 that this gentleman had done. And in fact, he had 
been fired also from another area. And they actually sent a 
packet to USA Gymnastics detailing all of these situations that 
he had been involved in. And yet, no response whatsoever.
    Do you ever do background checks on any of your coaches 
like this?
    Ms. Perry. First of all, let me state that----
    Mr. Carter. Do you ever do background checks on any of your 
coaches like this?
    Ms. Perry. So----
    Mr. Carter. It's a yes-or-no question.
    Ms. Perry. There are background checks that are being done 
currently.
    Mr. Carter. Did you do background checks on him, this 
sexual predator who is in jail, in prison for 30 years? Did you 
do background checks on him?
    Ms. Perry. I was not there. I can't answer that question.
    Mr. Carter. Well, find out who was there, because I need an 
answer to it.
    Ms. Perry. Yes, sir.
    Mr. Carter. OK?
    Ms. Perry. Yes, sir.
    Mr. Carter. Now, you know, it gets better, if there's such 
a thing, because after he was sentenced to jail, after he was 
in prison, a civil lawsuit was filed. And for 5 years--until it 
was just recently settled out of court last month--for 5 years 
you argued that you had no responsibility to protect these 
children training under your organization?
    Ms. Perry. I did not argue that. That's unacceptable. I did 
not argue that.
    Mr. Carter. Who argued it then?
    Ms. Perry. I started in December of 2017.
    But let me say this----
    Mr. Carter. Now, you know, let me say this: This is 
ridiculous.
    Ms. Perry. I agree.
    Mr. Carter. And how you can work for an organization like 
this that let this happen.
    You know, I've sat here throughout this whole hearing, and 
there's one thing I haven't heard from any of you--from any of 
you--and that is, ``I'm sorry.'' I haven't heard from any one 
of you say to the parents, to the children, to the 
grandparents, ``I'm sorry.'' And that's despicable.
    Ms. Perry. Let me answer if I can, please.
    Mr. Carter. Answer what?
    Ms. Perry. I've said I'm sorry.
    Mr. Carter. If you don't want to say you're sorry, I don't 
want to talk to you.
    And I'm reclaiming my time, ma'am, and I'm going to tell 
you, this cannot be tolerated.
    Ms. Perry. Right.
    Mr. Carter. Ms. Lyons, it's my understanding that you wrote 
in an email about a former USA Taekwondo athlete who sent 
information--who filed an ethics complaint--you wrote an email 
that ``this sounds like the same old BS.'' Did you write that 
in an email?
    Ms. Lyons. I did.
    Mr. Carter. You did? And are you currently the Acting 
Director, the acting CEO of the USOC?
    Ms. Lyons. I am.
    Mr. Carter. You should resign your position now. That 
insensitivity tells me that you are not fit to serve in that 
position.
    Ms. DeGette. Oh, my God.
    Mr. Harper [presiding]. The gentleman's time has expired. 
Let the record----
    Ms. DeGette. Mr. Chairman, I'd like to take a moment of 
personal privilege.
    Mr. Harper. Just let me say something first.
    Let the record reflect that during opening statements the 
U.S. Olympic Committee and the NGBs represented here all 
acknowledged responsibility for previous actions.
    With that, I'll recognize Mr. DeGette for a point of 
personal privilege.
    Mr. DeGette. Not only that, Mr. Chairman, they all 
apologized to the victims, to their parents.
    And furthermore, Ms. Perry, who was just relentlessly 
badgered by Mr. Carter, was brought in in December to fix this.
    Now, I hope she does fix it. But to badger her is 
inappropriate, Mr. Carter.
    Mr. Carter. Ma'am, she was on the board of directors when 
this happened. She was on the board when this happened.
    Mr. Harper. The gentleman is no longer recognized. And 
we're going to proceed with our questioning.
    Mrs. Brooks. Mr. Chairman.
    Mr. Harper. So at this time--yes.
    Mrs. Brooks. I believe it is important for us to clarify.
    I do not believe that Ms. Perry was on the board of 
directors, Mr. Carter. I have met with Ms. Perry after she 
began------
    Mr. Carter. Not Ms. Perry. Ms. Lyons is who I'm talking 
before.
    Mrs. Brooks. OK. But for the record, Ms. Perry, who is now 
leading USA Gymnastics, was not on the board of directors, was 
new to the organization.
    Mr. Harper. Let's stay on--thank you for that 
clarification.
    Mrs. Brooks. Thank you.
    Mr. Harper. Let's stay on track. This is an important 
hearing and the process of what we're trying to do. And we're 
going to stay on message here.
    The Chair will now recognize Mr. Costello for 5 minutes.
    Mr. Costello. Thank you, Mr. Chairman.
    If we could have everyone turn to Tab 20. I have a question 
for Ms. Lyons and then a question for Ms. Perry.
    The memo referenced, 2012 memo in Tab 20, discuses a 
requests that NGBs provide feedback to the USOC on the 
community's reaction should the USOC insist on criminal 
background checks. Ten NGBs apparently never responded. Thirty-
five of the 37 did respond, but required some--that some form 
of background check at the time was required.
    The two most recently cited obstacles to requiring criminal 
background checks: one, costs; two, resistance from the NGB 
constituency.
    Ms. Lyons, how much resistance did the USOC receive from 
the NGB community on requiring background checks?
    Ms. Lyons. Well, I was not part of this program. I don't 
know precisely.
    There was some resistance, and I think for the reasons put 
there, people were not, perhaps, putting this at the highest 
part of their priority list. And there was some pushback.
    Mr. Costello. And so the fact that the USOC did not begin 
requiring NGBs to conduct background checks until 2014, 2 years 
after this memo, why was there a delay? Would your answer be 
that they didn't place a priority on it?
    Ms. Lyons. I think the reality would be that putting in the 
actual practical applications of doing the background checks 
did take some time.
    Mr. Costello. Any other reasons why it took 2 years?
    Ms. Lyons. It takes a long time to get 49 organizations to 
all consistently adhere to a new change.
    Mr. Costello. Ms. Perry, USA Gymnastics practice in 2005 
was to allow professional members to self-certify as to their 
criminal background. When did USAG begin to require an actual 
background check instead of the self-certification.
    Ms. Perry. I don't--I'm not clear on that date. But I will 
tell you right now, for the last several years USA Gymnastics 
has required background checks for hiring of professionals, and 
in addition to that has other kinds of requirements as club 
owners and others are looking to hire individuals. And one of 
those is to make sure that they consult with our public-facing 
ineligible list and our suspended list online.
    Mr. Costello. Would you kindly provide an answer in writing 
as to when that did------
    Ms. Perry. Yes.
    Mr. Costello [continuing]. Take place. Thank you.
    To all NGBs, what results might show up on a background 
check that would lead your NGB to deny or terminate an 
individual's membership? Try and be brief, because I do have a 
followup on that.
    Mr. Hinchey. Any criminal activity or charges.
    Mr. Costello. Any? Shoplifting?
    Mr. Hinchey. Anything.
    Mr. Costello. OK. Anything else?
    OK. If an individual who is already a member fails a 
routine followup background check, what action would your NGB 
take?
    Mr. McNally. So anybody with a felony or a pending felony 
charge would be immediately suspended and given the opportunity 
for a hearing in front of our Ethics Committee.
    Mr. Costello. How about a misdemeanor? Would that be 
overlooked or would that also prompt the same level of 
scrutiny?
    Mr. McNally. A misdemeanor is not an automatic referral to 
the Ethics Committee. It would depend on the seriousness.
    Mr. Costello. It would depend upon the nature of the 
misdemeanor?
    Mr. McNally. Yes, it would, yes
    Mr. Costello. Any misdemeanor that involved any physical 
altercation, assault, or anything of a sexual nature would 
prompt it?
    Mr. McNally. Yes, it would. Anything, including violence, 
sexual or otherwise.
    Mr. Costello. OK. If a failing background check doesn't 
lead to terminating someone's membership, what would? I don't 
like that question, because I don't think it's very clear.
    Let me ask you this. Do your policies require background 
checks on athletes in addition to coaches, employees, doctors, 
volunteers, and the like? Background checks on athletes.
    Mr. McNally. USA Taekwondo doesn't require background 
checks on athletes, no.
    Mr. Hinchey. USA Swimming, no.
    Ms. Perry. USA Gymnastics, no.
    Mr. Davis. USA Volleyball, no.
    Mr. Costello. OK. Mr. McNally, as other NGBs began 
implementing these background checks requirement, and the issue 
of sexual abuse in sports rose in prominence, especially after 
USA Swimming's 2010 revelations, why didn't USA Taekwondo act 
faster in implementing this requirement?
    Mr. McNally. I'll have to supply that as an answer 
following the hearing, because I wasn't there. I believe they 
were implemented in late 2013.
    Mr. Costello. And for all NGBs, how far into the past do 
the background checks go?
    Mr. Davis. USA Volleyball started in the 2004-2005 season.
    Mr. McNally. I'm not entirely sure. I believe it's as far 
back as the records. If there's a felony from 2000, it will 
show up.
    Mr. Costello. Yes, that was my question, Mr. Davis. The 
background check on a particular individual goes back to when? 
To the date that they turn 18?
    Mr. Davis. I'm sorry. I have to give it to you in writing 
exactly on how that process works.
    Mr. Costello. Very good.
    Mr. Davis. But I believe it goes back to as far as they 
turn 18, yes.
    Mr. Costello. OK. I would kindly request of all the NGBs, 
if you could provide that answer in writing.
    Thank you. I yield back, Mr. Chairman.
    Mr. Harper. The gentleman yields back.
    The Chair will now recognize the gentleman from Florida, 
Mr. Bilirakis.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it 
very much. Thanks for allowing me to sit in on the hearing.
    This issue came to national attention because survivors 
were willing to speak up about their experiences with abuse. It 
was their bravery that shined a light on the many problems 
within the national sports organizations and how the systems 
previously in place had failed them.
    For the panel, and let's start with Ms. Lyons, how are you 
involving survivors and other athletes in your decisionmaking 
process and policy changes moving forward?
    Ms. Lyons. We think that the voice of the athletes is 
critically important in forming any of the changes that we 
make.
    I wish that many of the survivors would come and contact 
us. We actually are prevented due to some of the litigation 
from reaching out to them directly, but we would welcome their 
voices.
    We are setting up--we've just done a thousand-athlete 
survey, we received a thousand responses on the survey, to get 
our broader athlete population helping us to understand what 
their concerns are about SafeSport.
    We have been meeting with our Athletes' Advisory Council. 
And they will be--and other athletes of course--will be part of 
our athlete safety panel that's going to go forward and help us 
make the policy changes going forward.
    Mr. Bilirakis. Ms. Perry.
    Ms. Perry. Thank you.
    This is something that I think about every day. And one of 
the first things that I did when I became president and CEO was 
I started flying everywhere and talking to athletes, and some 
of those are survivors. And their voice is incredibly important 
to me.
    And what I have found is that there is just so much love of 
this sport, but there's a desire to have an impact on the 
organization and its strategic direction. And one of the things 
that I created was an Athlete Task Force to have that happen. I 
think it's a very important first step.
    Ms. Lyons talked about the advisory committee. That's 
important.
    But for me it is really about getting in front of as many 
athletes as I can and making sure that their voice is heard and 
that they feel empowered. And I will tell you that that is 
something I focus on every day.
    Mr. Bilirakis. OK. Please continue. Thank you.
    Mr. Hinchey. Congressman, we sent out--I sent out a letter 
to our membership encouraging and inviting any survivors to 
contact us for a chance to meet, and I would be happy to meet 
with them personally.
    I've had the opportunity to meet with one survivor thus 
far. I've had contact with two others and plan to have two 
other meetings.
    Aside from that, as I said previously, we need to engage 
and empower athletes to be part of our solutions going forward, 
and that will happen immediately.
    Mr. Bilirakis. Mr. McNally.
    Mr. McNally. So USA Taekwondo is one of, I believe, three 
NGBs participating in the SafeSport athlete climate survey, 
which is going to reach out to a select number of athletes and 
get them involved.
    We're also working with Fighting Spirit, which is a group 
that educates on sexual misconduct and bullying, to make sure 
that those athletes learn about this before they become 
victims.
    Mr. Bilirakis. Mr. Davis.
    Mr. Davis. We also engage our athletes and have an athlete 
council that we are engaging with to be able to talk to them 
about trying to make sure that everything is made transparent 
to us.
    In addition to that, we have been in constant contact with 
past victims, which were part of the reason of how we were able 
to be able to go and continue with the Mr. Butler case that we 
were able to do.
    Mr. Bilirakis. Ms. Pfohl.
    Ms. Pfohl. Yes. We actually have two athletes on our 
governing board, and we are also establishing a SafeSport 
Champions Program where we will able to cut across all of the 
sports to engage survivors, as well as those that are 
passionate about preventing bullying, harassment, hazing, and 
all forms of physical, emotional, and sexual abuse.
    Mr. Bilirakis. OK. Thank you.
    Next question. These horrific events occurred for years 
without repercussions. Unacceptable, as far as I'm concerned.
    Given this sad reality, what changes has your organization 
made to encourage athletes to come forward with any complaints 
of abuse they have made, or they may have some complaints. What 
changes have you made to encourage them to come forward?
    Let's start from here.
    Ms. Lyons.
    Ms. Lyons. I think, first and foremost, we have to make 
sure that the information on how they can come forward is made 
better available. So we've made a lot of Web site and other 
communications changes so that people are aware of the Center, 
its role, and that it is a clear path to safe reporting. That's 
item one.
    We also need to ensure that the athletes can, you know, 
reach out to anyone that they feel safe to discuss, and all of 
us need to make ourselves more visibly available to them.
    And I think that everyone on this panel believes that those 
voices need to be heard and is trying to build the mechanisms 
in place through either councils, working groups, surveys, 
whatever it takes to get those voices better heard.
    Mr. Bilirakis. How do we ensure that their actions, again, 
the allegations, the victims' allegations are acted on quickly?
    Quickly, if you could respond, because I don't have a lot 
of time.
    Ms. Perry. I think that it is really a cultural change. And 
that's something that I've embarked on from day one.
    And the culture has to be one where athletes feel they can 
speak up. And you accomplish that through a lot of different 
ways--through your structure, through your policies, through 
your personnel.
    But nothing replaces being there in front of the athletes. 
Nothing replaces being their advocate. And as an organization, 
that is something that I've dedicated my time, and, quite 
frankly, the reason I took this job, so that they would know 
their voice not only matters, but it's going to make a 
difference in our organization going forward, a very impactful 
difference.
    Mr. Bilirakis. OK. And it is important, again, I'm sure you 
know this, that these allegations are acted on quickly so that 
we can encourage others to come forward.
    So, unfortunately, I don't have a lot of time, so I have to 
yield back. Thank you.
    Mr. Harper. The gentleman yields back.
    The Chair will now recognize the gentlewoman from Michigan, 
Mrs. Dingell, for 5 minutes.
    Mrs. Dingell. Thank you, Chairman Harper and Ranking Member 
DeGette.
    Thank you for all of you being here today.
    Like many of my colleagues, the Olympians represent 
courage, dedication, hard work, and patriotism of our young 
people, and we're not getting to talk about that today, and 
they give us reason to celebrate and to support.
    But Team USA is more than a competitive team. It's 13 
million young athletes across our country. And like my 
colleague, Mr. Walberg from Michigan, I've stood witness to the 
irresponsible, despicable, unexcusable, abusive behavior that 
has caused catastrophic damage to these young people in 
Michigan. I've met them, these young girls.
    I'm sorry, I still get upset.
    I'm saddened. I'm disgusted. And I think all of us here in 
a very bipartisan way want to make sure it does not happen 
again.
    But what's bothering me today about this hearing, and 
what's bothered me about all of the studying that we've done to 
date, is that it's clear that the systems designed to protect 
athletes from the abusers failed.
    And by the way, my colleague, Mr. Walberg, was correct that 
the doctor was asked to step away, and he was very quickly back 
in the room. He was told that there should be someone in the 
room chaperoning him, and it didn't happen. And that is what is 
just so unforgivable. Or that there were no systems in place to 
begin with.
    There have been far too many incidences and allegations of 
sexual misconduct in sports, including allegations involving 
the individuals associated with each of the national governing 
bodies before us today.
    And honestly, I'm not reassured by your testimony, because 
I don't hear a sense of urgency. I keep hearing: Well, we're 
going to do it, we're going to get to this, we're going to do 
it. What is out there? Well, who are these young people that 
need help that aren't getting there?
    So I have some questions here. We've heard today that the 
U.S. Center for SafeSport plays a key role in protecting the 
athletes from abuse. Given how important this mission is, I 
find it deeply concerning that apparently it took 7 years for 
the U.S. Olympic Committee to get SafeSport off the ground.
    In fact, as early as 2010 the U.S. Olympic Committee 
Working Group for Safe Training Environments found that the 
Olympic Committee must do more to take a leadership role in 
protecting the athletes from abuse.
    By the way, that's what you're all saying today, but you 
all are ``working on it.'' And I hope that as you're working on 
it, you're going to be transparent, too.
    Ms. Perry, I'm glad that you're here today, but a lot of 
people have been wanting to hear from you since you took the 
job. You've got to be transparent with everybody.
    But by 2013, the working group had concluded that the 
authority to address SafeSport cases should be centralized with 
the new independent entity, referring to the U.S. Center for 
SafeSports.
    In 2014 SafeSport was created, but was still functionally a 
part of the U.S. Olympic Committee. Documents from that year 
indicate that this Olympics Committee board anticipated 
launching SafeSport in 2015.
    In 2015 SafeSport still was not functioning as it was 
intended. In fact, it was not fully operational in 2017.
    Ms. Lyons, are you familiar with this timeline?
    Ms. Lyons. Yes, ma'am, I am.
    Mrs. Dingell. Documents provided to the committee today 
suggest that a lack of funding was a major reason for the delay 
in opening SafeSport. For example, a September 2015 
presentation to the U.S. Olympic Committee board of directors 
stated that the launch of the U.S. Center for SafeSport is 
contingent on raising 5 years' worth of funding.
    Ms. Lyons, is it accurate that funding prevented the USOC 
from launching SafeSport sooner?
    Ms. Lyons. I think the answer is there was a delay. And as 
we look back, that was a mistake.
    We did hope for the Center, in order to be totally 
independent, we had hoped very much that other sports 
organizations outside of the Olympic movement would 
participate. We spent a fair amount of time trying to make that 
happen. It did not. In retrospect, of course, we should have 
funded it sooner and got it going.
    Mrs. Dingell. Why should I take confidence from what you're 
saying today when you look at this timeline. And I do want to 
ask questions about--there are only 14 people working there 
now, with some outside consultants, and the volume of work has 
got me worried, too. But you keep telling me: We're working on 
it, we're setting up a study.
    Is it going to take another 5 years or what we doing to 
protect these young people right now so this never happens 
again?
    Ms. Lyons. Well, first, I appreciate your anger and 
concern. And I share it. And I understand how frustrating it 
must seem and how incompetent it must seem that----
    Mrs. Dingell. Yes.
    Ms. Lyons [continuing]. We haven't made this happen sooner. 
I will tell you that at 27 out of the last 29 board meetings, 
SafeSport was a topic of conversation. There was a steady march 
of increasing new procedures, putting those in place, getting 
all the NGBs to suddenly be required to do certain things they 
had not done before. Those things all preceded the opening of 
the Center.
    There were many new controls that were put in place that 
were progress, but not enough, albeit not enough and not fast 
enough. And if we could turn back the hands of time, as the 
chairman said, I certainly wish we could and make it move 
faster.
    Mrs. Dingell. I just hope that everybody here realizes the 
time for talk is over and you need to walk your talk.
    Thank you.
    Mr. Harper. I want to thank each of you for being here 
today. We're almost done, but I do have just in response to 
some of these a little followup.
    And, Ms. Perry, Dr.Burgess asked a few questions about the 
abuse that had occurred at the hands of Nassar at the Karolyi 
Ranch. And you stated you did not want the athletes to have to 
return to such an emotionally painful place where they were 
abused. And so USA Gymnastics terminated its agreement with the 
Karolyi Ranch on January 18 of this year. I believe that was 
definitely the right decision to make.
    However, USA Gymnastics was aware of allegations against 
Nassar in 2015 and made the decision to renew its contract with 
the Karolyi Ranch in spring of 2017. Why was this agreement 
renewed in April of 2017 despite knowing about his abuse, 
sexual abuse, for years?
    Ms. Perry. Chairman Harper, I can't answer that question. 
It's a very important question. And, again, I think that many 
of these questions hopefully will be answered through the 
independent investigation with Ropes & Gray.
    But what I can tell you is that that and many things that 
I've done in the last 5 months have been about the athletes. 
Making sure that the ranch was closed. Making sure that we set 
up an athlete assistance fund for counseling and medical 
services. Making sure that we had an Athlete Task Force. And 
making sure they knew they had a voice with our organization 
and restructuring to make sure that we had the adequate 
SafeSport personnel to handle the kinds of volume that we have.
    Mr. Harper. Thank you, Ms. Perry.
    Ms. Lyons, was the U.S. Olympic Committee involved in the 
decision to renew the contract for the Karolyi Ranch in April 
of 2017?
    Ms. Lyons. No. There actually are two different contracts. 
The USOC had what I would call a marketing license with the 
Karolyi Ranch that allows them to be designated as a training 
site with the Olympic rings upon it. The actual lease of the 
property was a separate agreement to the USAG.
    Mr. Harper. OK. So my question was, was the USOC involved 
in the decision? Was the USOC even aware of the decision to 
open it back up?
    Ms. Lyons. I don't know the answer to that. I would guess 
they probably would have known, at least the lease was coming 
due and that it might be under consideration.
    We do know that they were considering buying the ranch.
    Mr. Harper. And we will ask that in writing to give you an 
opportunity to respond in more detail.
    And then my final point is, just curious, are routine drug 
screens done on the coaches? And just yes or no from each of 
you.
    I'll start with you, Ms. Perry.
    Do you do routine--I know athletes are, you know, drug 
tested. Are the coaches? Are there drug screens done on the 
coaches?
    Ms. Perry. I don't know the random nature of that, but I'll 
find that out.
    Mr. Hinchey. Not to my knowledge, but I'll find out.
    Mr. McNally. I don't believe so, no.
    Mr. Davis. I don't believe so, but we'll find out.
    Mr. Harper. OK. You're going to find out. But just curious, 
is that a problem? Would that help? Wouldn't that be a good 
thing to probably do? And I would encourage you to do so.
    And I'll recognize Ranking Member DeGette for her followup.
    Ms. DeGette. Thank you, Mr. Chairman.
    I just want to clarify a couple of things.
    The first thing is, Ms. Lyons, Mr. Carter asked you about 
an article from The Washington Post quoting an email by you. 
And I wanted to give you the opportunity to respond to what 
your entire email was, not just what Mr. Carter was badgering 
you about.
    Because the Washington Post story says, quote, ``Lyons 
wrote a heated email to three other USOC execs, including the 
then-CEO Scott Blackmun.'' Quote: ``'This sounds like the same 
old BS,' she wrote.'' Quote: ``Allowing a potential sexual 
predator to continue to coach without having an appropriate 
investigation and conclusion is unacceptable,'' end quote.
    Was that the full content of your email?
    Ms. Lyons. No, there actually was more.
    Ms. DeGette. There was more?
    Ms. Lyons. Yes.
    Ms. DeGette. Could you provide us a copy of that email if 
you still have it?
    Ms. Lyons. I have not been able to find it.
    Ms. DeGette. OK. But do you agree that you wrote those 
words?
    Ms. Lyons. Yes, I absolutely did.
    Ms. DeGette. Now, one other question. Actually, I wanted to 
ask Ms. Pfohl about what Mr. McNally was talking about, which 
is that, as I understand it, Mr. McNally, you said that there 
are only certain types of misdemeanors that your organization 
investigates. It would be violent ones or sexual or something 
like that. Is that right?
    Mr. McNally. Yes, that's correct.
    Ms. DeGette. So, as a former criminal defense lawyer 
myself, I will say that oftentimes more serious offenses, like 
felonies, get pled down to misdemeanors, and even misdemeanors 
that don't appear to be involving violence or sexual assault or 
things like that.
    So what I wanted to ask you, Ms. Pfohl, is does your 
organization make a distinction if a complaint comes in and it 
is a misdemeanor level or a felony level? Or would you 
investigate the misdemeanor ones as well?
    Ms. Pfohl. Thank you, ma'am.
    What we're looking at is, did someone breach the SafeSport 
code of conduct, which is much broader than the law.
    So we let law enforcement handle law enforcement issues, 
absolutely. Certainly, if someone has a criminal disposition 
that plays into our investigation, obviously that would be a 
breach of the SafeSport code. But what we're looking at is, did 
someone breach the SafeSport code.
    Ms. DeGette. So you're looking at the conduct, not 
necessarily the legal disposition.
    Ms. Pfohl. Correct.
    Ms. DeGette. So, Mr. Chairman, I just want to make one 
final statement, and that's this. I think that everybody in 
this room agrees this is a terrible tragedy that happened and 
we can't let it linger along--we can't let it drift along. The 
organization themselves, the USOC, can't let it drift along.
    We need to make sure that we actually have adequate funding 
so that the Center for SafeSport can do its job. And as of 
today, I have concerns about whether they have that amount of 
funding given the way the number of complaints has escalated.
    And so I would ask if you would consider--we'll continue to 
have conversations with everybody, but if you would consider 
scheduling a followup hearing, like 6 months from now, so we 
can see if these things are actually being implemented.
    Mr. Harper. I can assure you that the subcommittee will 
stay on this issue.
    Thank you, Ms. DeGette.
    To those individuals in the room or who may be watching who 
have been victims, I want to thank you for having the courage 
to stand up and for the role that you're playing in preventing 
future cases of sexual assault. We will continue this fight on 
your behalf.
    In conclusion, I'd like to thank our witnesses and the 
Members that have participated in today's hearing. And I'll 
remind Members that they have 10 business days to submit 
questions for the record. And I would ask the witnesses to 
promptly respond to those, if you so receive those questions.
    With that, the subcommittee is adjourned.
    [Whereupon, at 12:46 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
                                 <all>
</pre></body></html>
